<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[Senate Hearing 111-115]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-115

            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2009

                               __________

                          Serial No. J-111-14

                               __________

         Printed for the use of the Committee on the Judiciary







                  U.S. GOVERNMENT PRINTING OFFICE
52-800                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JOHN CORNYN, Texas
RON WYDEN, Oregon                    TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
            Bruce A. Cohen, Chief Counsel and Staff Director
              Nicholas A. Rossi, Republican Chief Counsel
    







                        C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., Leahy, a U.S. Senator from the State of 
  Vermont........................................................     1
    prepared statement...........................................   134
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     3

                               WITNESSES

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C..........     5

                         QUESTIONS AND ANSWERS

Responses of Robert S. Mueller, III, to questions submitted by 
  Senators Leahy, Feingold, Durbin, Whitehouse, Wyden, Hatch, 
  Grassley, Coburn...............................................    45

                       SUBMISSIONS FOR THE RECORD

Burton, M. Faith, Acting Assistant Attorney General, Office of 
  Legislative Affairs, Department of Justice, Washington, D.C., 
  letter.........................................................   113
Dugan Patrick, Assistant District Attorney, Chief of the Rackets 
  Bureau, New York, New York, letter.............................   119
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  letter.........................................................   123
Heintz, Vincent G., Esq. Bronx, New York, letter.................   126
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C., 
  statement......................................................   136
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania, letter...........................................   152

 
            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Feingold, Schumer, 
Durbin, Cardin, Whitehouse, Wyden, Klobuchar, Kaufman, Specter, 
Grassley, Kyl, and Sessions.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. Oversight is one of the 
Congress' most important responsibilities, and one that this 
Committee will continue to fulfill, as it has in past 
Congresses and will in this Congress. Today, we welcome back to 
the Committee Director Mueller of the Federal Bureau of 
Investigation, no stranger to this Committee. It is now 6 
months since our last FBI oversight hearing, and we will soon 
hold an oversight hearing with Secretary Napolitano, and then 
with Attorney General Holder, who had his confirmation hearing 
before us 2 months ago.
    So we will talk about the effectiveness of the Federal 
Bureau of Investigation in carrying out its critical missions 
to keep us secure while upholding the rule of law.
    We had a commemoration--and I was pleased to be there--of 
the 100th anniversary of the FBI last year. I want to quote 
something from what Director Mueller said. He said:
    ``It is not enough to stop the terrorist--we must stop him 
while maintaining his civil liberties. It is not enough to 
catch the criminal--we must catch him while respecting his 
civil rights. It is not enough to prevent foreign countries 
from stealing our secrets--we must prevent that from happening 
while still upholding the rule of law. The rule of law, civil 
liberties, and civil rights--these are not our burdens. They 
are what make us better. And they are what have made us better 
for the past 100 years.''
    I talked to the Director after that and commended him for 
that speech. In fact, I referred to it on the floor of the 
Senate and put it into the record.
    There are many vital issues on which we have to work 
together. One of particular importance is aggressive 
enforcement of the mortgage fraud and financial fraud that 
contributed to the massive economic crisis we are facing. I see 
Senator Grassley here. He and I introduced and passed out of 
this Committee legislation, which I understand may be on the 
Senate floor next month in that regard. As Director Mueller 
will share with us, the FBI's mortgage fraud caseload has more 
than doubled in the past 3 years, with all signs pointing to a 
continued increase in fraud cases. Then there is, of course, 
the need to police the use of the recovery funds. All these are 
straining the FBI's resources.
    I think the FBI is taking good steps to bulk up fraud 
enforcement and using creative measures, including new 
technologies and also interagency task forces. In his budget 
outline, the President showed leadership by committing to 
provide additional resources to the FBI to investigate and 
prosecute mortgage fraud. In my view, we have to do still more. 
More is needed to give investigators and prosecutors the 
resources they need to aggressively detect and prosecute these 
insidious forms of fraud. The Fraud Enforcement and Recovery 
Act of 2009 that I have mentioned--Senator Grassley and Senator 
Klobuchar and Senator Kaufman and Senator Schumer and I 
introduced that legislation--will do exactly that. I appreciate 
the Bureau's assistance in developing this important 
legislation. Yesterday, the Majority Leader said he is going to 
try to have it on the floor during the first week we are back 
after the Easter recess. I suspect it will pass overwhelmingly, 
and I hope we can get a time agreement to do that.
    Over the last couple of years, the Director has identified 
public corruption as the Bureau's top criminal priority. Recent 
high profile cases make clear the importance of aggressive 
enforcement of corruption laws. The Public Corruption 
Prosecution Improvements Act--that is a bill I introduced with 
Senator Cornyn of Texas--will give investigators and 
prosecutors the tools they need in this regard, and that has 
also been reported to the Senate.
    There are other issues that have arisen during the past few 
years. One is the misuse of ``exigent letters,'' to obtain 
phone records and other sensitive records of Americans, 
including reporters, without a warrant. These letters claimed 
emergency conditions that were not applicable and promised a 
follow-up legal process that never came. I hope that the 
Director will be able to assure us, and the Inspector General 
will confirm, that appropriate steps have been taken to prevent 
a repeat of that abuse. I will ask the Director to address 
concerns we have that the records may have been illegally 
obtained through these exigent letters and then inappropriately 
retained by the Government.
    I have been concerned--and I have discussed this with the 
Director--about the FBI's responsiveness to requests for 
information under the Freedom of Information Act. Open 
Government is key to a strong democracy. It is a principle that 
has been embraced by the new President and the Attorney 
General. The FBI has got to be faster in their responses.
    Now, during this hearing we will discuss, as we always do, 
the good and the bad: how the FBI worked to clear the backlog 
in name checks for immigration and voting purposes; how the FBI 
has improved its crime lab testing; but also which problems 
remain; and the expiring provisions of the PATRIOT Act.
    In the area of violent crime, there are disturbing signs 
that crime rates may increase significantly in response to the 
financial crisis, and we will talk about that.
    But, mostly, I applaud the Director's efforts to recommit 
the FBI to its best traditions. He has done it through not only 
his statements but his personal example and leadership. And I 
appreciate his openness to oversight and accountability. I 
might state parenthetically that there has never been an 
instance when I have called him when I have had a question 
about some action that the Director has not been on the phone 
immediately and been responsive.
    Senator Specter.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman.
    Before addressing the oversight hearing today, a very 
important one, on FBI Director Mueller, I want to comment about 
a matter which you just raised with me, and that is the 
confirmation hearing of nominee Judge Hamilton for the Seventh 
Circuit. I wrote to you yesterday on the subject because of 
concern which I have, as well as my caucus, on the timing, and 
I would ask that that letter be made a part of the record.
    Chairman Leahy. It was answered. You read it first in the 
press, and then I read it second, and so it has been in the 
public record because we have already viewed it in the press, 
but we will put it in the record. As I also mentioned to you 
this morning, I have had a number of times that at requests 
from your side of the aisle, I have delayed hearings and all, 
confirmation hearings, and then had further delays put in even 
though I have tried to cooperate that way, Attorney General 
Holder being one example where we delayed it for a week or two, 
and then it was put over another week, and then delayed for 
another week on the floor. And he subsequently was confirmed 
with the largest vote of the last four Attorneys General.
    I mentioned at a markup here recently having put over, at 
the request of Republicans, a couple nominations and delayed 
them to give them more time, and then unexpectedly they were 
put over under the rule by the Republicans, and I was somewhat 
frustrated that it seemed to be one-sided. But I know that 
Judge Hamilton is strongly supported by Senator Lugar and 
Senator Bayh. We will have the hearing, but then we will have 
almost 3 weeks after that before any markup comes up because of 
the Senate calendar.
    Senator Specter. Well, if I may return to the subject I 
started on and thought I had the floor on, the issue is not the 
time after the hearing on preparation. The issue is on time for 
preparation to ask questions at the hearing. That is what the 
hearing is about. And I was about to say that Judge Hamilton 
has a very extensive record on the Federal district court, some 
1,200 opinions.
    Now, in the time sequence set forth in the letter--and let 
me say that my Chief Counsel handed me a note that we did not 
release the letter to the press. And if there is any proof to 
the contrary and we identify somebody on my staff who did it, 
he will not be on my staff any longer.
    But let us get to the substance, which is important, on the 
confirmation process, and that substance is that it is a 
lifetime appointment. And when a comment is made by the 
Chairman to me that when you have a conservative Senator like 
Dick Lugar approving this nominee that is sufficient, well, it 
is not sufficient. There is a little thing called the 
Constitution, and it calls for confirmation by the Senate. It 
does not call for approval or recommendation by the home-State 
Senator. True, that is indispensable under our blue slip 
policy, or at least under the blue slip policy when we had a 
Republican President. And that is another practice that the 
Republican Caucus is going to insist on continuing. But Dick 
Lugar does not confirm. The Senate does, and the recommendation 
of the Judiciary Committee is indispensable on that.
    There needs to be time to make an analysis. To have a 
period of time after the hearing, does not do any good unless 
there is another hearing. And I know that is not contemplated 
and that is not necessary.
    Now, Director Mueller, thank you for coming and on to 
lesser serious subjects like terrorism and violent crime and 
the death penalty and other subjects which are very much in the 
forefront of the concern of the American people and this 
Committee.
    Terrorism remains a major problem in this country, and the 
first question I am going to ask you is whether you are in a 
position to assure the American people of two things: No. 1, 
that the mistakes on 9/11 will not be repeated; and, second, 
that we have made significant advances overall on coordination 
in the fight against terrorism with respect to the duties that 
the FBI has.
    We have enormous problems on violent crime, and we have a 
way in this country of saying that we cannot afford to pay for 
the prosecution and incarceration of violent criminals because 
of our government's other financial obligations. Well, that is 
unsatisfactory. Security is number one. National security is at 
the top of the security list, and terrorism is at the top 
there. But so is domestic security. And where you have public 
officials saying the death penalty ought to be eliminated 
because we cannot afford to enforce it, well, in my view, that 
is not acceptable.
    If there is a decision made in this country that we ought 
to change the rules and not have the death penalty, that is one 
thing. My own view, from experience as a district attorney, is 
that it is a deterrent if it is properly used. It has to be 
properly used, but that is a complicated subject. The issue as 
to whether we can afford it is one which I want to take up with 
you. Our prisons are overcrowded, but we cannot let violent 
criminals loose.
    Now, if we can make better judgments as to who ought to be 
detained, fine. We ought to be doing that. If we can work 
through prevention, rehabilitation of drug addicts, mentoring 
of at-risk youth, taking second-chance people and getting them 
out of the crime cycle so they do not go back to prison, that 
is something we need to do. And you have some important things 
to say on those issues.
    Then I want to talk to you about white-collar crime. I see 
too many major prosecutions ending in fines which turn out to 
be licenses to do business, licenses to violate the law. 
Certainly prison is a deterrent for white-collar crime, and I 
want to know what is going on. Actually, it is not that I want 
to know, America wants to know what is going on with all of the 
fraud which has led us to the terrible economic situation we 
have now where there have been misrepresentations about balance 
sheets and widespread selling of insurance around the world 
without a reserve. Has there been a representation here which 
has been breached? Is there fraud? Fraud is a crime. In this 
magnitude, there ought to be jail sentences to deter others, 
and that is a subject that I will want to talk to you about.
    Then I am going to want to ask you about what kind of 
oversight there is on corruption prosecutions. There was the 
prosecution of a Senator, Ted Stevens, which has drawn severe 
criticism from the presiding Federal judge, contempt citations 
against Federal prosecutors; an FBI agent was implicated--there 
is an issue as to what happened there, and it may be a matter 
for oversight by this Committee when the case is finished, or 
perhaps even sooner. It is a matter for the Chairman. But I 
will want to know what the FBI is doing on that case and what 
the FBI is doing in terms of providing oversight.
    As a district attorney, I saw many young prosecutors cut 
corners looking for big targets, publicity, high-profile cases, 
and the prosecutors have to be quasi-judicial and not do that. 
And that applies to the FBI agents as well, a subject that I 
want to take up with you.
    Finally, you come on a very busy day, Director Mueller, but 
you are used to that. We have Justice O'Connor testifying 
before another Committee that I am on. We have Governor Rendell 
testifying before a third Committee. So, as you know, Senators 
will come and go. But we are very concerned with what you have 
to say.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Please go ahead.

  STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR, FEDERAL 
     BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Mueller. Thank you very much, Mr. Chairman, Senator 
Specter, and Members of the Committee.
    As you know, we in the FBI have undergone unprecedented 
transformation in recent years, from developing the 
intelligence capabilities necessary to address emerging 
terrorist and criminal threats, to creating the administrative 
and technological structure necessary to meet our mission as a 
national security service.
    Today, the Bureau is a stronger organization, combining 
better intelligence capabilities with a longstanding commitment 
to protecting the American people from criminal threats. And we 
are also mindful that our mission is not just to safeguard 
American lives, but also to safeguard American liberties.
    Certainly the threats currently present in the national 
security arena continue to be a grave concern. Terrorism 
remains our top priority, and as illustrated by the recent 
Mumbai attacks, we cannot become complacent. Al Qaeda, lesser 
known groups, and homegrown terrorists will continue to pose a 
threat to the United States.
    We must also continue to guard our country's most sensitive 
secrets from hostile intelligence services and remember that 
our Nation's cyber infrastructure is vulnerable to compromise 
or disruption, be it from a terrorist, a spy, or an 
international criminal enterprise.
    But these three are by no means our only priorities. While 
Americans justifiably worry about terrorism, it is crime in 
their communities that often most directly impacts their daily 
lives.
    Public corruption continues to be our top criminal 
priority. The FBI has 2,500 pending public corruption 
investigations and in the last 2 years alone has convicted more 
than 1,600 Federal, State, and local officials. And we remain 
committed to ensuring those given the public trust do not abuse 
it.
    Economic crime is, of course, a critical concern now more 
than ever. For example, the FBI's mortgage fraud caseload has 
more than doubled in the past 3 years from 700 to more than 
2,000 active investigations. We currently have more than 560 
pending corporate fraud investigations, including cases 
directly related to the current financial crisis.
    In response, we have been shifting personnel within the 
criminal branch to the extent possible; we have been using new 
analytical techniques to better identify trends and violators; 
and we have been building upon existing partnerships to further 
leverage expertise and resources.
    For example, we created the National Mortgage Fraud Team at 
FBI headquarters to prioritize pending investigations, provide 
additional tools to identify the most egregious violators, and 
provide strategic information to evaluate where additional 
manpower is needed. We have also established 18 mortgage fraud 
task forces and 47 working groups with other Government 
agencies across the country so that we may more effectively 
focus on particular problem areas.
    While the FBI is surging to mortgage fraud investigations, 
our expectation is that economic crimes will continue to 
skyrocket. The unprecedented level of financial resources 
committed by the Federal Government to combat the economic 
downturn will lead to an inevitable increase in economic crime 
and public corruption cases.
    Historically, the Bureau handled emerging criminal threats 
by transferring personnel within its criminal branch to meet 
the new threat. After 9/11, we have lost some of this 
elasticity. In response to the September 11th attacks, the FBI 
permanently moved approximately 2,000 of its criminal agents to 
our national security branch. This transfer has substantially 
improved our counter terrorism program, and we have no 
intention of retreating from preventing another terrorist 
attack on American soil as our No. 1 priority.
    But the logical consequence of cannibalizing our criminal 
resources to augment our national security efforts is that we 
have reduced the ability to surge resources within our criminal 
branch. Although we have begun an effort to rebuild our 
criminal resources back to our pre-9/11 levels, we still have a 
substantial way to go.
    As always, the FBI will set priorities to attack the most 
severe threats, but a note of realism is in order in light of 
the scale of the FBI's existing mission after September 11th 
and the degree of strain on our current resources.
    Violent crime is also a very serious concern, and although 
data indicates violent crime declined across the country in 
recent years, the citizens of many communities, especially 
small to mid-sized cities, continue to be plagued by gang 
violence and gun crime. Since 2001, our gang cases have 
doubled, and the spread of international gangs, such as MS-13, 
has increased. The FBI continues to combat this threat through 
more than 200 safe streets, gang, violent crime, and major 
theft task forces across the country. These task forces enable 
us to work effectively with State, local, tribal, and 
international partners to provide an immediate response to 
surges in violent crime. And so, too, must we continue our work 
with State and local counterparts to combat crimes against 
children, the most vulnerable members of our communities.
    We are also deeply concerned about the high levels of 
violence along the Southwest border. Gang activity, drug cartel 
competition for supremacy, murders, and kidnappings plague the 
border in both the United States and in Mexico. These crimes 
can even impact communities deep in America's heartland.
    In recent visits with my counterparts in Mexico, I was 
again convinced that they are as concerned and certainly as 
committed as we are. This commitment is underscored by the fact 
that several of the top police and justice officials with whom 
we have in the past forged relationships have been assassinated 
by drug gangs. We will continue our strong alliance with our 
Mexican law enforcement partners to address this border-related 
crime.
    I also want to update you on key changes we have made 
within the FBI, both in our structure and in the way we do 
business to more effectively meet the challenges presented 
since September 11th.
    We know that the FBI's best and strongest asset is our 
people, and so we have paid attention to recruiting, training, 
and maintaining a work force with the skills necessary to meet 
the challenges of today's mission. Our hiring goals includes 
agents, analysts, IT specialists, linguists, and professional 
staff. In this year alone, we have received more than 300 
applications and have extended already 4,400 job offers.
    We have strengthened our training at the FBI's Quantico 
Training Academy for both agents and analysts. The numbers of 
State, local, and international law enforcement executives 
graduating from the FBI National Academy has grown, and we are 
revamping our approach to developing leaders at all levels 
within the FBI, recognizing that today's new employees are the 
leaders of tomorrow's FBI.
    Finally, a few words regarding improvements in FBI 
technology. Sentinel, our web-based case management system, is 
on time and on target. Blackberry with Internet capabilities 
have been issued to over 24,000 of our personnel. We currently 
have more than 30,000 workstations in the FBI Unclassified 
Network providing desktop Internet connectivity to employees 
throughout the enterprise. We are also strengthening several 
information technology programs described more fully in my 
formal statement that will allow us to communicate and share 
information with our law enforcement and intelligence partners.
    In closing, let me thank this Committee for your support 
for the men and women of the FBI, and I look forward to working 
with the Committee on these and other challenges facing our 
country.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mueller appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Director Mueller, and 
let me just on a couple of the things you talked about and that 
we have talked about here. I mentioned the wave of mortgage and 
securities fraud, and, of course, when you have an economic 
downturn and you add mortgage and securities fraud, it just 
makes it worse for all Americans.
    The number of mortgage fraud allegations throughout the 
country has increased almost tenfold since 2002. I know the 
FBI's mortgage fraud investigations have doubled in the last 
few years. We can talk about the unprecedented fraud and 
scandals like the Madoff $50 billion Ponzi scheme. If you saw 
that in a book of fiction a year ago or a couple years ago, 
everybody would say that is impossible. But they have 
undermined confidence in our economy, and I think that may be 
the tip of the iceberg.
    Now, the FBI can only do so much. It has had people 
reassigned to counter terrorism and other areas. We have seen 
white-collar crime prosecutions drop off as a result, or 
investigations. I think back to the 1980's during the savings 
and loan debacle, and I read with--Senator Specter made 
reference to the fact that it might become just a cost of doing 
business if you are just having fines. And I feel very strongly 
in some of these instances that if the people involved in it 
think they are actually going to go to prison, that shapes 
their mind a lot more than losing 5 percent off their profits 
in a fine. That is why I mentioned Senator Grassley, Senator 
Kaufman, and others introduced this Fraud Enforcement Recovery 
Act.
    In our act, we have increased tools and resources for the 
FBI, and I mean this seriously: Are those increased tools and 
resources things that would actually help the FBI? Would it 
make you more effective in this area of mortgage fraud and 
white-collar crime?
    Mr. Mueller. Absolutely. Certainly whatever additional 
resources we can receive or do receive with regard particularly 
to mortgage fraud, the sub prime crisis, will go to addressing 
the caseload of over 2,000 that we have currently around the 
United States, with an expectation that will increase.
    I will note that in the stimulus package the Senate had 
recommended adding 165 special agents, and that was not adopted 
by the House. But that additional complement of resources would 
have been exceptionally helpful, and those resources that are 
in the Fraud Enforcement Recovery Act will be put to good use.
    Also, the redefinition of the definition of ``financial 
institution,'' expanding securities fraud provisions to include 
fraud relating to options, futures, and commodities, and a 
number of the other provisions of FERA will be tremendously 
helpful in giving us the tools to investigate, ultimately to 
help prosecutors prosecute, and, finally, to obtain the 
convictions and the jail sentences that are the deterrent to 
this activity taking place in the future.
    Chairman Leahy. Thank you. I notice that today the 
Secretary of State has gone to Mexico, and the relationship has 
been somewhat strained, and the question of drug crime and the 
drug cartels. A recent article I read in a major publication 
asked is Mexico becoming a failed state or a mediocre state, 
either way being bad news to the United States. I am not asking 
you to state what kind of a state they are. But they are our 
second largest trading partner, and they are a democratic 
country, and yet since January of last year, they have had more 
than 7,000 people killed in drug-related violence. Some of it 
is horrendous--police, military, people involved in drugs, 
ordinary citizens, kidnappings, extortion, a lot of it spilled 
over the borders, into California and Texas and other border 
States. You have traveled to Mexico.
    You have seen some of these problems firsthand. The Obama 
administration announced a plan to redouble our efforts to work 
with them. How do we work with them with the amount of 
corruption there is there? I think everybody here wants to work 
with them, wants to help. How do we do this? I seems like an 
almost Herculean task.
    Mr. Mueller. Let me start by saying I do believe President 
Calderon is taking an exceptionally principled approach to 
address drug trafficking in Mexico, and as a result of his 
efforts--his efforts to address corruption, his efforts to put 
in place a police force that is free of corruption, his efforts 
to change the criminal justice and judiciary system to 
eliminate corruption--all of those have resulted, to a certain 
extent, in a short-term peak of violence.
    But I have no doubt about President Calderon's desire to 
address this and continue to address this. We work closely with 
the Attorney General, Medina Mora, and the Director of Public 
Security, Garcia Luna. And every one of those individuals is 
adamant about pressing forward with this war on the narcotics 
traffickers.
    You asked the question about the extent of public 
corruption. Yes, there is, and we in the Bureau as well as the 
DEA traditionally have worked with vetted units, and a key to 
addressing the public corruption is having vetted units that 
are vetted by both ourselves as well as the Mexican authorities 
so that you know that those individuals who are handling these 
cases are free of the corruption that has been seen in Mexico.
    I would also say that the violence has peaked in a number 
of cities--Juarez and Tijuana, to mention just a few. And it 
requires, I do believe, a thorough and--a surge, if you will, 
in those cities to drive down the homicides that were prevalent 
in those two cities, and we are seeing that now in Juarez as an 
example.
    Chairman Leahy. We may want to have your Department send 
somebody up here just for a private briefing of a number of 
members who have asked questions about this, and we can do it 
in a more secure room and discuss it, because they are 
concerned.
    My last question before we go into that--and I will up on 
the Mexican thing. The FBI's General Counsel provided the 
Committee with a briefing on steps the FBI has taken following 
the discovery that more than 700 so-called exigent letters were 
used improperly to obtain thousands of citizens' telephone and 
other records. The FBI was supposed to use national security 
letters to obtain this. They did not. The FBI supervisors, 
agents, and analysts from a particular FBI unit obtained 
records in violation of the law by sending letters promising 
that subpoenas would be issued, even though none ever were. The 
Inspector General is investigating this.
    I understand that the FBI has now issued new retroactive 
national security letters after the fact in order to justify 
holding onto more than half these records. In some cases, the 
FBI has decided to hold onto records without issuing any new 
letters.
    If the FBI did not have the legal authority to obtain the 
records in the first place, what legal authority do you have to 
hold onto them years later? And what kind of legal authority is 
there for issuing retroactive national security letters?
    Mr. Mueller. In the cases where we have a legal basis to 
obtain those records--in other words, a touchstone for the 
issuance of a national security letter in which we would have 
appropriately used the particular protocol or format, then we 
have kept those records. But there has to be a touchstone which 
enables us, gives us the legal right to obtain those records.
    Let me say more generally that I believe that the Attorney 
General--not the Attorney General but the Inspector General, 
when he finishes his report--and he has not yet finished--will 
find that, yes, there were substantial lapses in internal 
controls, that we did use exigent letters in circumstances 
where we should not, where there was not the exigency, and that 
at least in one area where we attempted to rectify it, we did 
not do it appropriately.
    My expectation is that he will find that those things 
occurred. They occurred back in 2006, 2005, and 2004. We 
stopped utilizing exigent letters in 2007, and my belief is 
that we put into place a number of procedures that will assure 
that this will not happen again, including a compliance office 
that looks at compliance not just when it comes to national 
security letters, but other areas of the Bureau where we have 
an obligation under the statutes, under the laws, to comply, 
and we want to make certain that we do not repeat what happens 
with the national security letter issue.
    Chairman Leahy. Thank you. When I come back, I want to go 
back to the retroactive issue.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Director Mueller, with so many topics to be discussed and 
only 7 minutes to do it, I would ask you to submit responses on 
my terrorism questions in writing.
    Mr. Mueller. Yes, sir.
    Senator Specter. And the questions are: On the errors that 
you and I discussed here 7 years ago with Moussaoui and the 
Minneapolis office and the coordination with the CIA leading to 
9/11, are those specific problems now corrected?
    Second, overall, are we in better shape today--I know the 
answer is yes; we discussed this informally, but some 
specification as to what has been done I think would be very 
helpful for the American public to have. A statement from the 
Director of the FBI, not enormous but summarizing what has been 
done, could give us assurances. Nothing is a foolproof system, 
obviously, but I know a great deal of effort has been 
undertaken that you have been at the center of, and you have 
been there all the time, unlike the CIA Directors or the 
DNI,which is only a recently created office. So you have a 
unique perspective on it, and if you would respond in writing, 
I would appreciate it.
    Let me take up the question of our ability to afford 
security from violent crime. Taking a look at some of the 
offenses, Federal offenses which are punishable by the death 
penalty--assassination of the President, espionage, treason, 
killing of a Federal witness to prevent testimony at a trial, 
drug kingpins, hijacking of airplanes resulting in death--in 
your judgment, should the death penalty be retained on those 
offenses and generally where the Congress has established a 
death penalty?
    Mr. Mueller. In appropriate cases, yes.
    Senator Specter. And while it is not Federal jurisdiction, 
what is your response to the repeated public comments now by 
State officials that the death penalty needs to be abandoned 
because it is too expensive to carry it out? What do you think 
about that?
    Mr. Mueller. I am not familiar with those comments. I would 
go back to the initial question you asked: Is the death penalty 
appropriate and still appropriate in certain of the actions 
that fall within the statutes that carry the death penalty as 
the appropriate penalty? I believe, yes, there are certain 
instances where I believe the death penalty is appropriate. I 
know other countries disagree with that, but, nonetheless, I 
believe in certain instances it is appropriate.
    Senator Specter. With respect to our prison population, is 
there any substitute for incarcerating violent criminals for 
public safety?
    Mr. Mueller. Talking about violent criminals, it depends, 
quite obviously, on the individuals. But generally a person who 
has a proclivity for undertaking violence, the likelihood of 
rehabilitation diminishes, and incarceration may be the only 
protection for the American public.
    Senator Specter. Let me ask you this, Director Mueller: 
With respect to prisoners in the Federal prison system, I would 
appreciate it if you would give some thought to the question of 
what could be done with them. Your Bureau knows them 
thoroughly; you have investigated them--where could we make a 
segregation with a view to release some of them or 
differentiate in their sentencing? That is a little bit outside 
your purview, but you have the necessary expertise--I am going 
to direct the same question to the Attorney General.
    I want to move on now to the white-collar crimes. You say 
you have some 700 cases. The thought occurs to me that it would 
be very salutary if you could move ahead on some of them 
promptly. We just had a prosecution in Philadelphia, a Federal 
prosecution of a State Senator, Vincent Fumo. There were more 
than 100 counts. The investigation took years. The trial took 
months. All of that was not necessary. I was a district 
attorney myself, handled complex cases. You could move through 
the cases, and the investigation without bringing hundreds of 
counts.
    Let me ask you to take a look at that issue, too, and 
respond in writing if there are some of those cases that could 
be expedited. Public attention is very brief, and it would be, 
I think, very helpful to our overall system in this economic 
crisis to give public assurance--regarding a question I hear 
all the time: What is going on? Where is the accountability? 
Who is going to go to jail? Well, we are not going to send 
people to jail who do not deserve to go to jail, but if they 
deserve to go to jail, my core question I am sure you 
understand is: What can we do to expedite the investigations 
and prosecutions to narrow the timeframe? If there is some more 
investigation and prosecution required to succeed, you can 
investigate further. You do not have to have 100 charges.
    A final subject I want to talk to you----
    Mr. Mueller. I would just address that very briefly to say 
that we are working with a number of U.S. Attorneys and with 
the Department of Justice for what we call ``fast-track 
prosecutions'' in a number of areas, and we are doing--as I 
indicated in my remarks, we are prioritizing our cases to get 
the most egregious early and put those persons away.
    So we share your concern and your desire for a fast-track 
approach to a number of these cases, of which we have 2,000 at 
this juncture.
    Senator Specter. Well, maybe you could narrow the interval 
even further and expedite cases even further as examples for 
deterrence.
    A final subject that I want to bring up with you is the one 
I mentioned, the Stevens prosecution, and in this case, the 
trial judge severely admonished the Department of Justice for 
inappropriate conduct. FBI agent, Chad Joy, alleged that 
prosecutors knowingly withheld Brady evidence, and that a 
member of the prosecution team relocated a witness to keep him 
from testifying because he had done poorly in a mock cross-
examination. FBI Agent Joy said a female FBI agent had an 
inappropriate relationship with Allen, a key witness. There 
were also contempt citations, and the FBI agent was involved. 
Now you and I discussed it informally, but I think it is 
important to put it on the record.
    I alluded in my opening statement to problems which I saw 
where prosecutors were anxious for notoriety, to bag a big 
target, and this required a lot of supervision. And my question 
to you is: What kind of supervision--and I am going to put a 
similar question to Attorney General Holder. I understand he is 
making a personal review of the Stevens matter with regard to 
impropriety on the part of prosecutors, which the judge has 
already made contempt findings.
    But what efforts are made at the senior echelon, mature 
people in your Bureau to make sure that your FBI agents do not 
overstep and act inappropriately because of their desire to get 
a so-called big target?
    Mr. Mueller. Let me start by saying, Senator, as you are 
aware, in that particular case the issues that you raised are 
the subject of post-trial motions and are being addressed not 
only by the judge in the post-trial briefings and hearings, but 
also by a team at the Justice Department that is looking at the 
allegations where they would relate to the prosecutors or the 
FBI.
    You also, I think, are quite aware that in a public 
corruption case, particularly a serious public corruption case, 
the decision whether or not to take action is overseen by a 
number of people at levels whether it be the Assistant Attorney 
General in charge of the Criminal Division, the Deputy Attorney 
General, and ultimately the Attorney General to assure that the 
case is appropriately brought.
    If in the course of that case there are allegations, 
whether it be attributable or against a prosecutor or an FBI, 
then that is investigated, FBI agents by ourselves, but also by 
the Department of Justice, as well as the prosecutors by the 
Department of Justice in the form of OPR or others. And so it 
is going on at least two tracks currently, the most important 
one being the post-trial motions in that particular case, and, 
therefore, I am somewhat precluded from speaking more about it.
    Senator Specter. The question of the FBI's procedure 
regarding senior supervision is a generalized one. That was 
where I led you. I was not surprised to hear the reasons you 
cannot answer in specific cases. I am well aware of those. 
There is a value sometimes in the publicity on a question, even 
though there is not an answer. But the question I asked you 
does not involve a case specifically: Do you have senior people 
in the FBI supervising conduct, especially in these so-called 
big target cases?
    Mr. Mueller. Absolutely. We have it at the supervisory 
level in the field office. We have it at the special agent in 
charge in the field office. Back in the Criminal Division, we 
have the section chief and then the Assistant Director in 
charge of the Criminal Division, all of whom will be familiar 
with the facts and the conduct of the investigation, and 
ultimately in terms of the conduct both in the course of the 
investigation at trial, it would be myself and my Deputy, John 
Pistole. There are various levels of supervision. And when we 
receive allegations or assertions of conduct that should be 
investigated of our own people, we initiate that investigation 
very quickly and follow through.
    And to the extent that it is conduct that is raised at a 
serious level, we first go to the Inspector General to 
determine whether or not the Inspector General should take a 
look at the conduct, looking as an objective third party, and 
basically in most cases the Inspector General has a right of 
first refusal.
    Senator Specter. Well, I like the detail of that answer, 
especially the part where you get involved.
    Thank you very much.
    Senator Feinstein [Presiding.] I would like, if I might, to 
go over the order. Following my questions, the order is 
Grassley, Feingold, Kyl, Schumer, Sessions, Cardin, Klobuchar, 
Kaufman, and Whitehouse.
    Welcome, Mr. Mueller, and thank you very much again for 
your service. It is appreciated. My first question is one that 
involves one particular case, and that is the case of a murder 
in Loudoun County of a highly decorated Special Forces retired 
colonel and his wife, a retired Army captain. They were out for 
a walk. A van stopped. He was beaten to death. She was badly 
beaten, is in a hospital. It is murder and attempted murder.
    Can the FBI become involved in that case?
    Mr. Mueller. I am familiar with the facts raised in the 
newspapers. I have not followed up, but I will have to get back 
to you on whether or not we would have some role to play. 
Certainly if requested by the local authorities, yes; 
otherwise, we would have to look and see whether there is a 
Federal nexus that would warrant our participation. We would, 
quite obviously, in a case like that----
    Senator Feinstein. I would appreciate if you would look at 
that. This is a very unusual situation, it seems to me, and a 
horrible one. And I think everyone is extraordinarily upset by 
it, and we need to move fast. So I would appreciate it.
    What is the FBI, Mr. Mueller, doing to prevent the supply 
of guns from the United States to Mexico? The Mexican 
ambassador and the Mexican Government has told us that 90 
percent of the guns going to the cartels in Mexico are coming 
right from the United States of America. So my question is: 
What is the FBI doing about it?
    Mr. Mueller. I would say that we are supportive. ATF has 
the major role in gun investigations. When we come across in 
the course of our investigations individuals who are 
trafficking in weapons, we immediately bring in the ATF and 
will work with the ATF on joint cases.
    To the extent that we pick up guns in the course of our
    investigation----
    Senator Feinstein. No, my question is different. Is there a 
specific effort now going on to take a look at the straw 
purchasing that is going on and other transmitting of weapons 
down into Mexico?
    Mr. Mueller. It is, and that is being undertaken by ATF, 
and we are supportive of ATF.
    Senator Feinstein. But do you believe that is sufficient? 
You know, Senator Durbin as the Chair of the Subcommittee and I 
as the Chair of the Caucus on International Narcotics Control 
had a hearing. The Attorney General of Arizona testified, and 
it is really a terrible situation where these guns are just 
coming down in bulk into Mexico and fueling the cartels. And I 
wonder if just having ATF, which has always had, in my view at 
least, a restricted role, is enough to stop this.
    Mr. Mueller. Well, I will say we do not have a focused 
effort in that particular area. Along the border we address 
public corruption on our side of the border in which we have 
substantial numbers of cases, with the drug-trafficking 
individuals maybe paying off persons along the border. We have 
substantial threats with regard to kidnappings, Americans who 
will travel to Mexico, either because of their businesses or 
families, who will be kidnapped. We have extortions. We have 
gang activity trans-border, all of which keeps us quite 
occupied.
    We do not have a focused effort on ourselves. We are 
supportive in each of our field offices of ATF's efforts. But I 
will go back and take a look and see what more we can do in 
that particular area, because I do not disagree at all that 
substantial numbers of guns are coming from the United States, 
and it is fueling the violence south of the border.
    So I would be happy to go and take a look and see if there 
is something more we can do in that regard.
    Senator Feinstein. Yes, and you can be assured I will 
follow up.
    Mr. Mueller. Yes.
    Senator Feinstein. I appreciate that very much.
    In September of 2004, Chris Swecker, the Assistant Director 
of the Criminal Investigative Division at the FBI, said that 
mortgage fraud could cause multi-billion-dollar losses to 
financial institutions. CNN reported that he said that this 
fraud has the potential of being an epidemic and, ``We think we 
can prevent a problem that could have as much impact as the 
savings and loan crisis.'' Despite this early warning, the L.A. 
Times reported on August 25, 2008, that the FBI has actually 
reduced the number of agents devoted to investigating mortgage 
fraud.
    Can you tell us exactly what the situation is, why agents 
are reduced, and what the position of your agency is with 
respect--I can tell you, in California it is a big problem.
    Mr. Mueller. Well, let me start by saying that I believe 
Chris Swecker was prescient in terms of anticipating it.
    Senator Feinstein. I believe that, yes.
    Mr. Mueller. But you did not see the rise for a couple of 
years, the rise in mortgage fraud. What triggered or what was 
the catalyst to much of this is the drop in the housing 
markets.
    We actually had done a number of cases in mortgage fraud 
back in 2000 and 2001, particularly in this area. What we found 
over a period of time is, because the housing market was moving 
so rapidly ahead, that much of the fraud was, and particularly 
the values were minuscule because the property market kept 
going up. And, consequently, the triggering factor to what you 
see today in the vast majority of the mortgage fraud cases we 
have were triggered by the decline in market values over a 
period of time.
    That does not mean that we could not have put additional 
resources on it, but at that time, we had other priorities that 
we were focused on, and not this one. I do not believe, though, 
had we put more agents--it would have been relatively few, and 
I do not believe that that would have prevented what had 
occurred over the last couple of years.
    Senator Feinstein. Well, I can tell you it is out there, it 
is a problem. I can tell you there are people that are selling 
mortgages that are unqualified. They misrepresent, and, you 
know, we have had actual cases. There actually was a special 
targeted team working the L.A.-Riverside-San Bernardino area. I 
think the FBI was involved. It made several arrests. But that 
really needs to be done on an ongoing basis, and my question, I 
guess, is: What are you going to do about this?
    Mr. Mueller. Well, in the last 2 years, we have had 800, 
900 prosecutions, successful prosecutions across the country. 
Last summer, we had a series of cases around the country which 
came to fruition about the same time called ``Malicious 
Mortgage,'' in which we had locked up a number of persons. And 
you will continue to see day in and day out other successful 
investigations and prosecutions, putting away the persons that 
are responsible for this.
    But as I have indicated, the numbers of frauds have grown 
over the last 2 years, and we can address just so many with the 
agents that we have.
    Senator Feinstein. Yes, but you have reduced the number in 
Los Angeles, and if you would look into that, too, as the third 
thing and let me know why.
    Mr. Mueller. Over the last 2 years, we have increased the 
numbers of agents. When he testified--I have not looked back at 
the date when he testified, which I think was maybe 2004, 2005. 
But certainly over the last several years, we have increased 
the number of agents that are doing mortgage fraud.
    Senator Feinstein. All right. Then that report was not 
correct, you are saying.
    Mr. Mueller. It may have been correct at the time, at or 
about the time that he testified and shortly thereafter. But 
for the last couple of years, we have increased the number.
    Senator Feinstein. I am referring to a report in the L.A. 
Times on August 25, 2008, that the number of agents have been 
reduced that are investigating mortgage fraud.
    Mr. Mueller. As of that date, I do not think--I do not 
believe that is accurate as of that date.
    Senator Feinstein. If you could check.
    Mr. Mueller. I will check on that, yes.
    Senator Feinstein. This is an area--if you could speak 
quickly a little bit about--well, I am already over my time so 
do not speak. Thank you very, very much.
    Senator Grassley, you are up next.
    Senator Grassley. Thank you. As I usually do, I want to 
give you an update on where we are in some of our 
correspondence. The Committee has not received answers from 
your agency to all questions for the record from either 
September 2008 or March 2008. When I last met with Attorney 
General Holder--this was in December before he was actually 
appointed--I provided him with a collection of my letters to 
the Justice Department, including the FBI, that were still 
considered unanswered, and he pledged to review them, if 
confirmed. I generally ask that my letters be answered within 2 
weeks, but, on average, replies were 371 days.
    By the way, I gave him a folder probably that thick. I also 
gave the Secretary-designate for HHS a folder that big of 
letters that have not been answered. So the Justice Department 
is not necessarily the worst ones. But I get tired of waiting 
for replies.
    After this hearing was scheduled, I recently received two 
additional replies to letters that had been outstanding for 
several months, and I want to use the word ``reply'' rather 
than the word ``answers'' because oftentimes FBI and Justice 
Department staff will send a reply that does not actually 
answer a question.
    So a very short answer to this question, please: Do you 
agree that it should not take months or years for members of 
this Committee to get substantive answers to our legitimate 
oversight questions?
    Mr. Mueller. Not only do I agree, but I would be--I would 
tell you, the March QFRs from 2008, we sent answers over to the 
Department of Justice in June. The September 2008, we sent 
answers over in December. I discussed with the Deputy Attorneys 
General the necessity of responding so that I do not get the 
same questions each time that we come--that I appear before 
this Committee.
    So I am hopeful that----
    Senator Grassley. I think you are saying that you have 
answered our questions, but they are buried in the bureaucracy 
at Justice. Is that----
    Mr. Mueller. There is a process that one goes through where 
the questions go to Justice for clearance as well as OMB for 
clearance.
    Senator Grassley. I tried to explain to the Attorney 
General and every other Democratic nominee for Cabinet that you 
have got this stuff unanswered that comes from the Bush 
administration, surely wouldn't you want to clear this up so if 
it is answered next September, the Obama administration is not 
being connected with it when it is the fault of some previous 
administration? It would seem to me like you would want to--not 
you. Everybody would want to get them cleared up.
    Well, I am a little bit exasperated because of President 
Obama's commitment to openness and transparency in Government 
and the policies that the new administration has put in place, 
and I would expect that all of the executive branch agencies 
would be more responsive to my requests. I say that with 
confidence because the President made a very big issue out of 
being more transparent during the campaign.
    Let me move on. The Government Accountability Office 2008 
Performance and Accountability Report says the following: 
``Most departments and agencies are very cooperative with our 
requests for information. However, our experience with some 
agencies, such as the Department of Justice, has proven more 
challenging.''
    Why do you think that the General Accounting Office had to 
single out the Justice Department as particularly uncooperative 
with its requests for information?
    Mr. Mueller. I do not know, sir. I would have to look into 
whether that statement encompasses--the Department of Justice 
would encompass the FBI. I am not certain whether it is 
directed at the FBI. If it is, I would want to look at that and 
see what the issue is as we try to cooperate and coordinate----
    Senator Grassley. Before I ask you the next question, since 
the Chairman is not here, I would like to have the Chairman's 
staff take note of something I learned from Senator Baucus on 
our Finance Committee and nominees before that and not getting 
information out of the administration at that time. He put 
holds on people that were under the jurisdiction of the 
Treasury Department. He put holds on those nominations until he 
got answers, and I think it is about time that not only for my 
own part but for the Chairman's part, who often says that he 
does not get answers to his letters and inquiries, that we 
ought to think in terms of doing something like that in the 
case of nominees for Justice Department Assistant and Deputy 
Secretaries.
    For several years before Countrywide Financial was 
purchased by Bank of America, it operated a VIP loan program 
that gave discounts on mortgages to, among others, influential 
public figures and Government officials. About 30 such loan 
recipients were publicly named in press reports. House 
Republicans of the Governmental Oversight Committee obtained 
some disturbing internal Countrywide e-mails where executives 
explicitly considered borrowers' ``political influence'' in 
making loan decisions. The FBI has been investigating these 
issues since last year. However, my office has received 
reliable information that investigators have not yet obtained 
basic documentations for loans. The last thing that we need is 
slow-walking this kind of investigation.
    Given that American taxpayers' now substantial investment 
in Bank of America, I would hope that their cooperation with 
law enforcement would be even more swift and certain. Will you 
look into this matter and assure this Committee that all the 
relevant documents are being shared with law enforcement 
entities in them? And then before you answer that, is there any 
legitimate reason why investigators would not have actually 
already obtained the Countrywide Financial loan files from Bank 
of America by now?
    Mr. Mueller. Let me say generally that I am briefed on 
the--I have for several months been briefed about every other 
week on the cases relating to the subprime mortgage crisis, and 
in those briefings we talk about very generally, not 
necessarily specifically, any issues that might come up that 
would delay investigations, and we address those. We are 
anxious to make certain that we press ahead as fast as we can 
on all investigations.
    Yes, I would be happy to get back to you with an answer as 
to, without talking about a specific investigation or specific 
set of documents, whether we have met any hurdles in terms of 
pursuing those investigations. I have not heard of any such, 
but I will make the inquiry and get back to you on that.
    Senator Grassley. Thank you very much.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you, Senator Grassley.
    Senator Feingold.
    Senator Feingold. I thank the Chair. And it is good to see 
you again, Mr. Director.
    The last time you were before this Committee, we spoke at 
some length about the draft Attorney General Guidelines for 
Domestic Investigations that the Department was rushing to 
finalize before the last administration left office. I went 
back and looked at the transcript of our conversation, and I 
just want to ask you a few things about that.
    First, you said at that time, despite my complaints about 
the procedures by which we were being shown the draft that you 
were incorporating suggestions that had been made by Members of 
Congress and by outside experts. Yet the final guidelines that 
went into effect in December, in my view, were not appreciably 
different than the draft that we saw prior to your appearance 
in September. As you know, the main concern that many of us had 
about the new guidelines when we saw the draft, and we 
expressed them to you and the former Attorney General, was that 
they permit FBI agents to initiate an assessment without any 
suspicion of wrongdoing whatsoever. And those assessments can 
include physical surveillance, recruiting sources, and pretext 
interviews. You chose not to revise that basic approach.
    Why do you think it is necessary to give agents such broad 
authority? And what protections are in place to prevent that 
authority from being abused?
    Mr. Mueller. We have had that authority in the criminal 
side of the house for years, as I think we discussed 
previously. We have not had on the national security side. And 
it is not an authority. It is the approval under the guidelines 
of the Attorney General. We have the authority to do it. It is 
a question of whether it fell within the guidelines by the 
Attorney General.
    When you are looking at trying to prevent an attack in the 
United States, that is far different than doing investigation 
after an attack occurs. And you have to take tidbits of 
information that may relate to a particular individual, a 
grouping of individuals, to determine whether or not those 
individuals pose a threat.
    I am wont to say if you go back to September 11th and you 
look at the memorandum that was produced by Ken Williams, who 
is an agent out of Phoenix, about individuals who were going to 
flight training who might present a risk to the American 
public, we were excoriated for not following up on that 
memorandum. You asked what should we have done. Should we have 
then gone to flight schools and see whether there was a threat 
there? The assessment process allows us to address threats such 
as that when there is some information that there may be a 
threat that exists. It requires a proper purpose, not 
necessarily the predication on a particular individual. And 
that is an example where I think if we had pursued it under the 
assessment capabilities, perhaps we would have come up with 
something, which is why I think it is important that we 
maintain that capability.
    Senator Feingold. We could debate in that example whether 
or not there was a suspicion of wrongdoing, but I do not want 
to spend all my time on that. So let me ask you about just what 
protections are in place to prevent abuse. Mr. Director, you 
have had to call me and tell me that there is going to be a 
disturbing report about other authorities that were given to 
the FBI and say, you know, ``I am sorry this happened because 
sometimes authorities are abused.'' So what would you say about 
that?
    Mr. Mueller. Well, in sensitive areas, it requires that in 
order to open an assessment you have to go through the counsel 
on the particular office and have the approval of the special 
agent in charge. There are certain other categories that are 
carved out where they are particularly sensitive when it 
relates to religious institutions or educational institutions 
and the like, and you want to undertake some sort of 
assessment, there is a scale of approvals that are required to 
look into the particular instance to assure that it is not just 
an agent who is on his or her own undertaking that activity 
without any scrutiny and approval process in place. So we have 
carved out areas that are particularly sensitive for enhanced 
scrutiny and approvals.
    We are working with the Department of Justice to go into 
our field offices periodically and do a scrub and look at the 
approval process to determine whether or not the i's have been 
dotted and the t's crossed so that we don't have another 
national security letter issue.
    Senator Feingold. All right. Let me move on to another----
    Mr. Mueller. Those are two of the things that we are doing.
    Senator Feingold. Thank you, and we will pursue this more 
in the future. I will continue to be interested in it.
    Attorney General Holder said at his confirmation hearing 
that he would revisit the guidelines once there had been a 
chance to see how they are working. What is your estimate of 
the number of assessments conducted using these new 
authorities? And how many of those assessments resulted in 
preliminary or full investigations?
    Mr. Mueller. I would have to look at those and get back to 
you on that.
    Senator Feingold. Would you get back to me on that? All 
right.
    Let us turn to something we have discussed before, the need 
for the FBI to gain the trust of the American Muslim community 
to assist in the effort to stop terrorism. I was disappointed 
to learn of a recent statement from the American Muslim Task 
Force on Civil Rights and Elections, signed by ten leading U.S. 
Muslim organizations, indicating that they are considering 
suspending their work with the FBI. According to a news report, 
``The groups claim the FBI has sent undercover agents posing as 
worshippers into mosques, pressured Muslims to become 
informants, labeled civil rights advocates as criminals, and 
spread misinformation.''
    Can you determine and report to this Committee whether 
mosques have been entered by FBI agents who were informants 
without disclosing their identities under the authority of the 
Attorney General guidelines? And if so, how many?
    Mr. Mueller. Well, there are a number of questions in 
there. I would hesitate to provide information on ongoing 
investigations, quite obviously. I will say that we do not 
focus on institutions. We focus on individuals. And I will say 
generally if there is evidence or information as to an 
individual or individuals undertaking illegal activities in 
religious institutions with appropriate high-level approval, we 
would undertake investigative activities, regardless of the 
religion. But we would single that out as an exceptionally 
sensitive circumstance that would require much vetting before 
that occurred.
    Senator Feingold. So, in theory, it could include entering 
a mosque under a different identity?
    Mr. Mueller. I will stick with my answer.
    Senator Feingold. All right. Let me ask you one more thing 
before my time is up. Do you think----
    Mr. Mueller. Could I say one other thing?
    Senator Feingold. Absolutely.
    Mr. Mueller. You allude to issues with regard to the Muslim 
community. Let me say that the Muslim community has been 
tremendously supportive of the Bureau since September 11th.
    Senator Feingold. Absolutely
    Mr. Mueller. They have been supportive. The outreach and 
the relationships have been exceptional.
    Senator Feingold. That is exactly why I am bringing this 
up.
    Mr. Mueller. But there are instances where we will have an 
issue with someone or an individual or individuals in the 
Muslim community that needs to be resolved.
    Senator Feingold. All right. Let me ask one more question--
--
    Mr. Mueller. But the vast majority----
    Senator Feingold [continuing]. Before my time is up, on 
this point, Mr. Director. Do you think that the new Attorney 
General guidelines are helping or hurting the FBI's 
relationship with the U.S. Muslim community? In light of this 
task force statement, how do you plan to improve that 
relationship?
    Mr. Mueller. Well, I periodically meet with the leaders of 
the Muslim community. I believe we will be doing it shortly in 
a future--once again. Each of our offices meets weekly or 
monthly with members of the Muslim community. My expectation is 
that our relationships are as good now as before the guidelines 
generally across the country. There may be an issue here or an 
issue there with a particular institution or individuals. But I 
do not believe that it undercuts our relationship with the 
Muslim community around the country. The Muslim community 
understands that the worst thing that could happen is that 
there be another terrorist attack in the United States. It has 
been tremendously supportive and worked very closely with us in 
a number of instances around the country. So I do not believe 
that the guidelines or the other issues adversely impact that 
relationship.
    Senator Feingold. Thank you, Mr. Director.
    Senator Feinstein. Thank you, Senator Feingold.
    Senator Kyl, you are next up.
    Senator Kyl. Thank you, Madam Chairman.
    Director Mueller, thank you for being here. I want to 
follow up on questions my colleague from Wisconsin just asked 
because obviously you appreciate how important it is to 
distinguish between the Muslim community, which you just 
described, and groups which support terrorists and obviously, 
therefore, are the subject, at least potentially, of 
investigative activities.
    On February 23rd of this year, Senators Schumer and Coburn 
and I wrote you a letter commending your decision to sever ties 
with the Council on American-Islamic Relations, CAIR, and 
asking some questions about the scope of the new policy. I 
think your staff has been advised that I would ask you why we 
have not received a response to that letter yet. We thought 
that the decision that was made was prudent and long overdue, 
especially in light of the fact that the Government itself 
introduced evidence that demonstrated the links between CAIR 
and Hamas, which led the Government to label CAIR and specific 
members as ``unindicted co-conspirators'' in the Holy Land 
terror finance trial. In fact, agents of the Bureau testified 
and affirmed the evidence of these links. My understanding is 
that Representative Wolf has also written a letter somewhat 
similar to ours and made various inquiries.
    Can you tell us why we do not have a response yet and when 
we might be able to expect a response?
    Mr. Mueller. No. I will go back and see where that is and 
try to get that out swiftly to you.
    Senator Kyl. We would appreciate it very much. Just let me 
summarize a couple of the questions. Perhaps these are 
questions you can answer right now.
    Is it, in fact, correct that the Bureau has cut off its 
ties with CAIR?
    Mr. Mueller. I prefer not to discuss any particular 
organization in the Muslim community. I can tell you that where 
we have an issue with a particular organization, we will take 
what steps are necessary to resolve that issue.
    Senator Kyl. Well, whatever the policy is, which I gather 
you will describe, is that a Bureau-wide policy? Does it apply 
to the regional offices and district offices and so on, the 
field offices?
    Mr. Mueller. We try to adapt, when we have situations where 
we have an issue with one or more individuals, as opposed to an 
institution, or an institution, writ large, to identify with 
some specificity those particular individuals or issues that 
need to be addressed. We will generally have--individuals may 
have some maybe leaders in the community whom we have no reason 
to believe whatsoever are involved in terrorism, but may be 
affiliated in some way, shape, or form with an institution 
about which there is some concern and which we have to work out 
a separate arrangement. We have to be sensitive to both the 
individuals as well as the organization and try to resolve the 
issues that may prevent us from working with a particular 
organization.
    Senator Kyl. Even though you have said you prefer not to 
talk about specific organizations in this hearing, I guess the 
question still remains whether the information that we received 
that this particular organization was no longer one with which 
you were having a direct relationship, is that information 
incorrect?
    Mr. Mueller. I think what I would prefer to do, if I could, 
is provide that letter to you where I can be more precise in 
terms of----
    Senator Kyl. All right. That is fair enough.
    Mr. Mueller [continuing]. And have some opportunity to 
review exactly specifically what I say.
    Senator Kyl. I appreciate that. Let me maybe carry it a 
little bit further into an easier area for you. The Holy Land 
case also dealt with the Muslim Brotherhood, and I just wanted 
to quote from one Government exhibit, Exhibit Number 3-85, from 
that trial, and this is also known as Ekwan: ``The Ekwan must 
understand that their role in America is a kind of grand jihad 
in eliminating and destroying the Western civilization from 
within and sabotaging its miserable house by their hands and 
the hands of the believers so that it is eliminated and God's 
religion is made victorious.''
    Are members of the Muslim Brotherhood or the organization 
itself active at all in the United States, to your knowledge?
    Mr. Mueller. I would say generally we have investigations 
that would address that issue, yes.
    Senator Kyl. And do you have a policy about meeting with 
that organization or its members?
    Mr. Mueller. I would not say we have a written policy, but 
I can tell you that before we--that in the course of our 
liaison activities, we certainly search our indices to make 
certain that when we meet with individuals, that they are not 
under investigation, and that we can appropriately maintain 
liaison relationships with them.
    Senator Kyl. There has also been a fairly public case--in 
fact, Senator Lieberman held a hearing in the Homeland Security 
Committee concerning a problem in Minnesota, and I suspect you 
are familiar with that.
    Mr. Mueller. Yes.
    Senator Kyl. This is the so-called Al-Shabaab group and 
some Somali youth who have left that community and, in fact, at 
least one who is, I gather, believed to be involved in a 
suicide bombing. Can you tell us anything about your work in 
that area?
    Mr. Mueller. I think it has been, to a certain extent, 
publicized that individuals from the Somali community in 
Minneapolis have traveled to Somalia to participate with al-
Shabaab, and there are ongoing investigations into that issue. 
Again, we are working with the Somali community in Minneapolis 
and other cities around the United States to combat that 
radicalization that has occurred.
    Senator Kyl. So then it is correct to describe a 
radicalization process that is occurring at least in one 
community in the United States that has resulted in one of 
these individuals going abroad and at least allegedly 
committing an act of terrorism? Would that be accurate?
    Mr. Mueller. That is accurate.
    Senator Kyl. Can you quantify your belief as to how 
widespread this might be in the United States? And by that, I 
mean the attempts to radicalize young----
    Mr. Mueller. Well, radicalization comes in a number of 
forums--or fora, perhaps I should say, the Internet being one 
of the principal ones now. It also can be individuals. It can 
be members of a community. I do believe that what we have seen 
in Minneapolis is not widespread throughout the United States, 
and that it is, I believe, a matter of public record that one 
individual who was so radicalized became a suicide bomber in 
northern Somalia back in October of 2008. We have not seen that 
occurrence again, but we do not want to see it either and the 
parents of the individuals do not want to see it either. And 
so, again, we are working with the community to make certain 
that any pockets of radicalization are identified and 
addressed, whether it be in Minneapolis or around the country.
    Senator Kyl. I appreciate that and would just note if we 
could get a response to that letter, I think it would be very 
helpful. I am not sure of the origin of it, but for some 
reason, a lot of my constituents over the last several weeks 
have approached me and asked me questions. Somebody, I think, 
must be spreading the word that there are potentially a lot of 
these organizations around the United States, a lot of people 
being radicalized, and it is a matter of great concern. And I 
have tried to suggest that, at least from my knowledge, it is 
not widespread, that the FBI obviously would have a handle on 
it.
    But to the extent that you can get the information to us so 
we can assure our constituents of what is, in fact, going on, I 
think that would be very helpful.
    Mr. Mueller. Yes, sir.
    Senator Kyl. Thank you.
    Thank you, Mr. Chairman.
    Chairman Leahy [presiding]. First, I want to thank Senator 
Feinstein for filling in while we were trying to do 
appropriations and this, and, Senator Cardin, please go ahead, 
sir.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank you, Director Mueller, for your service and 
thank you for being here today. I want to talk about the 
PATRIOT Act, if we might. There are three major provisions that 
will sunset during 2009 that will need to be taken up by 
Congress, and this Committee will have a significant role in 
regards to the reauthorization and perhaps modifications of the 
roving wiretap, the business records, and the lone-wolf 
provisions.
    I would hope you could share with us the importance of 
these provisions, whether you believe that there will be 
efforts made to extend these sunsets and whether you will be 
recommending modifications in these laws, and what process you 
are intending to go through to work with Congress as we take up 
these issues, which in the past have been somewhat 
controversial.
    Mr. Mueller. My hope, quite obviously, is that they will be 
less controversial as they come up this time because we have 
seen their use and have some track record with it.
    Starting with the business records provision, 215, we have 
utilized that 223 times between 2004 and 2007. We do not yet 
have the records or the total for 2008. But it has been 
exceptionally helpful and useful in our national security 
investigations.
    With regard to the roving wiretap provision, that is also 
sunsetting. We have used that 147 times, and that also has 
eliminated a substantial amount of paperwork and I would say 
confusion in terms of the ability for us to maintain 
surveillance, electronic surveillance on an individual where we 
can utilize that roving wiretap provision.
    As to the lone-wolf provision, while we have not--there has 
not been a lone wolf, so to speak, indicted, that provision is 
tremendously helpful. Where we have a difficulty in showing a 
tie between a particular individual about whom we have 
information that might be supporting terrorism and be a 
terrorist, but we have difficulty in identifying the foreign 
power for which he is an agent, whether it be a terrorist group 
or otherwise, what we call the ``Moussaoui problem,'' where the 
issue was the inability for us to tie Moussaoui to a particular 
terrorist group, so that also is a provision that has been, I 
believe, beneficial and should be re-enacted.
    I have not yet had an opportunity with the new 
administration to have a discussion about the position. I know 
we will be working with the Department of Justice on these 
three provisions, but my hope is that the Department will 
support the re-enactment of all three and that we can sit and 
work with Congress to explain, if necessary, more fully how 
important they are to our work.
    Senator Cardin. Well, I very much appreciate your response. 
Having the total numbers of use is useful and very helpful. In 
regards to the business records, there has been some press that 
has been less than favorable on some of the applications, but 
this may not be the right forum to get into more detail. But I 
do think it is important that the Judiciary Committee in its 
oversight function and the Intelligence Committee in its 
oversight function examine more specifics, for two reasons.
    One, I think most of us believe these tools are extremely 
important, and we want to make sure that you have the tools 
that you need. We want to make sure that there is the 
appropriate oversight, and we normally get more attention as we 
get closer to the deadlines for extending sunsets than at other 
times during the year. And we want to make sure we take 
advantage of this opportunity to get a better understanding so 
we are on the same page as to what tools are needed.
    And the third point is there may need to be modifications, 
not necessarily restrictions, there may need to be fine-tuning 
of these provisions to make sure that they are more effective 
and used as intended by Congress.
    I would just encourage you to work with the Chairman of our 
Committee and the Chairman of the Intelligence Committee so 
that we can feel more comfortable working with the 
administration. I know it is early in the new administration, 
but this issue is going to come up quicker than we think, and 
the one thing I do not want to see happen is that we have a 
deadline without an opportunity to be fully comfortable with a 
bill that would extend the provisions in the PATRIOT Act.
    I would like to ask one more question on a different 
subject, and this deals with the security risk assessments for 
all individuals with access to select agents and toxins. As you 
know, I represent Maryland, home of Fort Detrick, where the 
major problem with Dr. Ivins took place, and there was a lot of 
discussion about looking at the procedures used for security 
clearances and revoking security clearances.
    Could you update us as to where we are as far as a comfort 
level, knowing that those people who have access to toxins are, 
in fact, being cleared appropriately for the sensitivity of 
their positions?
    Mr. Mueller. I know in the wake of the attacks in October--
actually, September or October of 2001, that there were 
upgrades made. But upon the identification of Dr. Ivins as 
being the principal person involved, a wholesale review was 
ordered by the Department of Defense. And I am not certain 
where that review is. We would have to get back to you on that.
    Senator Cardin. And I appreciate that, and that is fine. I 
do believe you have the responsibility on some of the security 
clearance issues, so it does involve--am I correct on that?
    Mr. Mueller. In some of it, although I would have to check 
on it, but I think most of the security clearance work is done 
by DOD itself as opposed to us. But I will have to check on 
that.
    Senator Cardin. I appreciate it.
    Mr. Chairman, I would just stress I would hope that we will 
have the opportunity to return to the issues of the PATRIOT Act 
far in advance of the deadline for the end of this year where 
we have to act.
    Thank you, Mr. Chairman.
    Chairman Leahy. And I can assure the Senator we will, 
because the sunset provisions were put in there basically to 
force not only the Congress but the administration to look at 
the parts that are expiring and make sure, if we renew them, 
that we do it in a justifiable fashion. So I assure the Senator 
we will.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and I think the 
PATRIOT Act was carefully constructed. We had some very 
vigorous hearings, and I believe all the provisions in it are 
consistent--do you not agree, Mr. Mueller--with traditional law 
enforcement methods, many of which are being used in other 
circumstances and even against terrorism and that care was 
taken not to violate any of the great constitutional 
protections that we cherish in this country?
    Mr. Mueller. I do. I am, not surprisingly, a strong 
supporter of the PATRIOT Act, particularly the areas where it 
broke down the walls between ourselves and the intelligence 
community. Senator Specter alludes to the changes since 
September 11th. One of the substantial changes since September 
11th has been, quite obviously, our sharing of information with 
the intelligence community and vice versa, and that was 
attributable to the PATRIOT Act.
    These three provisions that are to sunset are important 
provisions that we hope will, again, be re-enacted when it 
comes up for a vote.
    Senator Sessions. Well, we will need to focus on making 
sure that you report that correctly and that they are used 
correctly, and oversight is always healthy in this country.
    Director Mueller, thank you for your leadership. I think 
the American people can go to bed at night knowing that their 
Director of the FBI is working as many hours as he can put in a 
day, and your team is, to focus on making this a safer, more 
lawful country. I am proud of what you do. But oversight is 
good, even for the FBI, wouldn't you agree?
    Mr. Mueller. I agree.
    Senator Sessions. You believed that when you were not in 
the FBI, I am sure.
    Mr. Mueller. I agree.
    Senator Sessions. All right.
    Mr. Mueller. Occasionally, it is tough, but I agree.
    Senator Sessions. The Wall Street Journal reported that the 
Attorney General is considering some Guantanamo subjects. The 
Washington Post today has an article that the outcry is growing 
in Alexandria, Virginia, over a prospect no one seems to like: 
terrorist suspects in suburbs. The historic, vibrant community 
less than 10 miles from the White House is a family friendly 
zone, they say, but it looks like now we might be having 
criminal trials in the Alexandria Federal courthouse. And the 
quote from the mayor was, ``We would be absolutely opposed to 
relocating Guantanamo prisoners to Alexandria. We would do 
everything in our power to lobby the President, the Governor, 
the Congress, and everything else to stop it.''
    But the question is: If these individuals are released or 
tried, to what extent is the FBI by necessity forced to direct 
resources to try to make sure that they do not commit terrorist 
acts inside the United States? Does that put an additional 
burden on you and your agency? Don't you have responsibilities 
to make sure that someone who has been identified, at least at 
one point, as associated with terrorism is not likely to get 
loose here?
    Mr. Mueller. I believe we would have the responsibility to 
evaluate the risk and minimize any risk for individuals, 
whether it be Guantanamo or individuals coming into the country 
about whom we have information that they may have been at one 
point in time associated with terrorism.
    Senator Sessions. So that is an additional burden on you.
    Mr. Mueller. We would----
    Senator Sessions. I know a lot of our friends, people watch 
the television and they see these interesting shows. But as a 
practical matter, you are not able to put individual FBI agents 
on the hundreds of people here if they are moving about this 
country 24 hours a day surveilling them. And those things are 
not realistically possible in the world we live in, are they?
    Mr. Mueller. Well, we have to prioritize our surveillances, 
whether it be electronic surveillance or physical surveillance, 
and we do that on a daily basis. And to the extent that there 
are individuals that are coming into this country that have or 
present some threat, we would prioritize and utilize what 
resources we thought were necessary to make certain that an 
individual or individuals did not constitute a threat to the 
American public.
    Senator Sessions. Well, we have the Uyghurs who are 
terrorists, apparently, targeting China, a nation that we want 
to live in harmony and peace with, and they apparently, 
according to these articles, are one of the groups most likely 
to be released. So I think it is a matter of great importance, 
and there is no free lunch here. We place ourselves at greater 
risk if more and more of these people end up being released 
because we did not have sufficient evidence in a criminal trial 
when historically, in my opinion, these individuals are 
unlawful combatants and perhaps were arrested on the 
battlefield. And we may not have the kind of normal evidence 
you would have, wouldn't you agree, to try a case in a Federal 
district court?
    Mr. Mueller. There are occasions where we have individuals 
about whom we have information that would either be 
inadmissible in Federal court or because it would disclose 
sources and methods, one would not want to put that information 
into Federal court. There are instances where that is an issue.
    Senator Sessions. Mr. Mueller, you and I talked previously, 
and Senator Feinstein raised some of these issues with you. I 
would point out the chart that I think I shared with you that 
the Administrative Office of Courts shows prosecutions for bank 
embezzlement, financial institution embezzlement, financial 
institution fraud being tried in the Federal courts to be 
declining and that these are primarily traditionally FBI-
investigated cases.
    Are you looking at those numbers? And what do we need to do 
to be able to increase those prosecutions, particularly in this 
time where we are seeing reports of more fraud occurring in our 
financial markets?
    Mr. Mueller. In the wake of September 11th, as I have 
indicated in remarks earlier, we have moved 2,000 agents from 
the criminal side to the national security side to address 
counterterrorism. Many of those agents have been working--a 
vast majority--not the vast, but a majority of them have been 
working on smaller drug cases. A substantial number, though, 
have been working on smaller white-collar criminal cases that 
we could no longer afford to do. The tellers who would be 
embezzling from a bank, for instance, where the losses are 
relatively small, we had thousands of those cases that we could 
no longer do. We have had to prioritize, and we had to 
prioritize earlier, 5, 6 years ago when we had Enron, 
HealthSouth, WorldCom, a number of large financial fraud cases 
where we needed to allocate appropriate personnel to address 
those cases.
    And so I do not believe you will see the same numbers in 
Federal court because there are so many fraud cases out there, 
mortgage fraud cases, institutional fraud cases, of a size that 
dwarf some of the smaller ones that we traditionally have done. 
So the numbers will not be there. I do believe that the impact 
and import of the investigations and prosecutions will be 
exceptionally substantial compared to some of the work that we 
had done 5 or 10 years ago.
    Senator Sessions. I think that is important. I also like 
the idea that you have a fast track in some of these 
prosecutions. You can take 3 years with one if you want to 
sometimes, and sometimes in 6 months a case can be tried and a 
person sent to jail where they need to be. And those are things 
a good leader like you know how to do, and I hope the 
Department of Justice cooperates with you. And I would like to 
see more of these prosecutions.
    We have always heard, every time this has been raised, ``We 
are prosecuting bigger cases.'' For the last 30 years, that is 
what happens. When the numbers go down in an office, you say, 
``Well, we are prosecuting bigger cases. It takes more time.''
    I am not really sold on your argument there.
    Mr. Mueller. I would ask you to look at the cases. I would 
ask you to look at an Enron or HealthSouth or a WorldCom and 
the impact on it, and you as a prosecutor would know the 
efforts that go into those cases. Look at the public corruption 
cases, the efforts that go into the public corruption cases in 
terms of the type of investigative activity. And if you look at 
our record over a number of years, the last number of years, 
particularly since September 11th, in terms of addressing 
public corruption, we have doubled, if not tripled the number 
of prosecutions in that arena.
    Senator Sessions. There has always been big cases.
    I thank the Chair.
    Chairman Leahy. We will not get into war stories. All the 
former prosecutors are out here. We had big cases or smaller 
cases.
    I yield to Senator Schumer.
    Senator Schumer. I am one of the--I may be the only non-
former prosecutor on this podium right now. I do not know if 
Ted is a former prosecutor, but maybe he joins me as the lonely 
group of non-former prosecutors.
    Mr. Mueller, thank you again for being here and for your 
service to our country. My first two questions relate to 
personnel and amounts of personnel--first, at the Mexican 
border. Obviously, these drug cartels are a big problem. 
Obviously, some of the responsibility is DEA, some of the 
responsibility with the guns is ATF, but the FBI has 
responsibility everywhere. So let me ask you these two 
questions.
    Do you have enough agents to do the job at the border, 
given the increase in the amount of crime that we have that has 
shocked Americans?
    Mr. Mueller. Our focus on the southwest border has been in 
a number of areas. First of all, public corruption, the monies 
that are generated through narcotics trafficking to various 
U.S. officers, and we have a number of those cases. We have 
kidnappings that have grown, particularly in the San Diego 
office as well as the El Paso office, with Juarez across the 
river. We have gang activity that is north of the border that 
is in some ways aligned with the cartels south of the border. 
We could always use additional resources. All of us could use 
additional resources. And our hope is that if Congress sees fit 
to give us resources in that regard, that you do it in 
conjunction with State and local law enforcement.
    Senator Schumer. Sure.
    Mr. Mueller. I believe we work much better if we work 
shoulder to shoulder with State and local law enforcement.
    Senator Schumer. Well, look, I think just my perusal, you 
do need more resources, and I think you will find cooperation 
on both sides of the aisle to get them, and it is something I 
will be working for in the new budget.
    What about the creation of an entirely new unit devoted 
specifically to the investigation and dismantling of violent 
narcotics cartels at the border? Obviously, again, this 
presents new challenges. It is international, two nations. But 
some kind of unit that just focuses on this. I have found that 
when the FBI has these task forces and other units, they really 
get the job done. Whereas if one piece is in this division, one 
piece is in that division, it does not become as effective.
    Would you consider setting up a separate unit just focused 
with the right personnel from the right departments to focus on 
the cartels that are running across our border and doing harm 
on both sides of it?
    Mr. Mueller. Let me speak to two vehicles already that are 
there. The OCDETF program, the Organized Crime Drug Enforcement 
Task Force program, in which we are substantial participants, 
still is, I think, a vehicle that for the last 10, 15 years has 
been looking at the cartels, principally led by DEA, but DEA's 
reason for being is to address those cartels. And in the 
vehicle of the OCDETF program, I believe we play an important, 
a substantial role.
    Second, what we have done is, in my trips to Mexico and 
along the border, I do believe that more could be done in 
consolidating the intelligence. Our intelligence would go from 
our legal attache office in Mexico to headquarters and down to 
our borders. So we are establishing a focused unit to bring 
together the intelligence down in El Paso next to the EPIC, 
which is the El Paso Intelligence Center.
    Senator Schumer. I would say, you know, this is a new 
problem. Maybe it is an old problem, but a problem that has 
gotten a lot worse. I would urge some kinds of focused task 
forces, not just participation in the DEA, because it is a much 
broader problem than just drugs. Drugs are both a cause and 
effect.
    Let me go to financial problems and financial crimes. What 
I have found, I have heard from my local DAs, particularly my 
DA in Brooklyn, lots of different kinds of mortgage fraud, and 
not just on an individual basis but among different groups. 
When he goes to the U.S. Attorneys there, they say, well, we 
are busy, we are busy with terrorism. This is the Eastern 
District or the Southern District. We are busy with, you know, 
the airports and drugs and all of that. We do not have enough 
personnel to look into these kinds of things, even though 
Federal law might be more appropriate than State law in some of 
these.
    And then we have, of course, the kinds of financial crimes, 
the larger financial crimes that were talked about. Senator 
Leahy, Senator Grassley, and myself have put in legislation to 
increase the number of agents as well as the number of U.S. 
Attorneys to look into this, and I think that legislation, Mr. 
Chairman, will be coming to the floor in a few weeks.
    Chairman Leahy. I understand right after the recess.
    Senator Schumer. Yes. But we are just adding, I think it 
is, 75 agents and a number of prosecutors. I do not recall the 
number. Given that the priorities are shifting--as they always 
are; that is your job--do you have enough personnel to go after 
both the larger and smaller financial frauds which we have seen 
and seem to have become almost endemic over the last decade? Do 
you need more personnel? Is the proposal that we, Senator 
Leahy, myself, and others have sponsored enough? Could you give 
us some degree of that? Because, again, I am hearing from my 
local law enforcement that when they go to the Feds and say, 
``You should look at this,'' they say, ``We would love to, but 
we cannot. We do not have enough personnel.''
    Mr. Mueller. I would distinguish the U.S. Attorney's Office 
from the Bureau.
    Senator Schumer. Yes, but they are saying the personnel is 
not just the prosecutors but the agents.
    Mr. Mueller. We have refocused, again, a number of agents, 
we have increased the number of agents that are addressing 
mortgage fraud and a larger financial fraud related to the 
subprime mortgage market. We have received--I think we received 
25 agents in the 2009 budget, and my hope is that, thanks to 
your efforts, we will receive additional agents.
    I will tell you that when we went through the savings and 
loan crisis back in, probably, 1992----
    Senator Schumer. Yes. You were very successful. I helped 
put that together.
    Mr. Mueller. We were. And we had approximately a thousand 
agents working it, as opposed to maybe 500 or 600 that with the 
best effort this year----
    Senator Schumer. So let me ask you, if we gave you more in 
the area of financial fraud, you could certainly use them.
    Mr. Mueller. Yes. And what we have had to do is prioritize, 
utilizing a number of mechanisms to identify the more egregious 
offenders and focus on those offenders and couple that with a 
fast-track prosecution methodology that would push persons 
through the----
    Senator Schumer. All right. One final question. Given the 
fact that we only have an acting DEA, an acting ATF, you know, 
we do not have the people in place, would you consider a trip 
to the Mexican border, provided it is safe, to just figure out 
what is going on and visit it yourself?
    Mr. Mueller. I have been there. I have been there, Mexico. 
I was there maybe 2 months ago. In the last year, I have been 
at least twice to the border, and I plan to be down there in 
May.
    Senator Schumer. Good.
    Mr. Mueller. The last time I was there, I recognized that 
we could do a better job consolidating intelligence, and out of 
that visit comes the consolidated mechanism that we are putting 
in El Paso.
    Senator Schumer. Great.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much, Senator Schumer.
    Normally Senator Klobuchar would be next, but I understand 
she would yield to Senator Kaufman. Senator Kaufman, please.
    Senator Kaufman. Thank you, Senator Klobuchar. I really 
appreciate that. And thank you, Mr. Chairman, for holding these 
hearings. I just think these oversight hearings are so 
incredibly important because they allow us to talk on a regular 
basis so we do not get too far off track. So I think that is 
great.
    And, Director Mueller, it is great to see you again. It is 
great that you are here. It seems like you were just appointed.
    One of the things clearly we are concerned about is the 
financial fraud, and we have a bill, a group of us have a bill, 
S. 386, to do that. And I know you have talked about it before. 
One of the things, could you comment on--you talked about what 
you are doing now. Can you comment on the urgency of getting 
these FBI agents to help you deal with the financial fraud 
problems?
    Mr. Mueller. Financial fraud, you know, your basic mortgage 
fraud case, maybe three or four individuals are in a 
conspiracy--the appraiser, the lender, and two or three others. 
It is a lot more complicated than your usual narcotics case or 
bank robbery and the like, and it takes not only the expertise 
of the agent, but forensic accountants to put the matter 
together and to develop the evidence. And you cannot get bogged 
down in the paperwork.
    There is a mentality in the past of putting persons in a 
room full of thousands of pieces of paper and going through and 
adding up all of the counts so that you get the maximum 
sentence. We cannot afford to do that. And they are 
complicated, and it takes not just the agents, but it takes the 
forensic accountants, it takes the intelligence analysts to do 
the job. And we talk about more than 40 institutional cases 
that we have in which there are allegations that have been 
raised, large financial institutions, the extent of the 
information that needs to be reviewed, most of it now digitally 
maintained, not only by ourselves but the SEC and the 
coordination with the SEC and ourselves and the prosecutors. It 
becomes a substantial issue. And so it is not just the agents, 
but it is also the team that you need to put into place to 
address these, understanding that we have to identify the most 
egregious actors, move quickly to indict them, and then move on 
to the next one.
    Senator Kaufman. Also, this is unusual in that it is not 
just the mortgage brokers that are doing this. You go all the 
way up the chain to the people who securitized the mortgages, 
the rating services maybe that have conflict of interest in 
dealing with the rating at the same time they were doing 
business. Then you get to the bankers, then you get to the 
brokers. So, I mean, I assume we are going to be looking at all 
these different players in terms of possible financial fraud.
    Mr. Mueller. We are.
    Senator Kaufman. Good.
    Mr. Mueller. Some of our initial indictments over the last 
year have been exactly in that arena.
    Senator Kaufman. There has been an explosion of this. That 
is why I am concerned about the urgency of this thing that as 
time passes, obviously you are talking about complex litigation 
to start with, now you are talking about complex litigation 
that is 2 months, 4 months, 6 months later. And that is why I 
think that it is urgent that we get you the FBI agents.
    Mr. Mueller. I agree.
    Senator Kaufman. Over the past decades, you have done an 
amazing job with organized crime--in fact, really bringing it 
under control. Is there any thought about using some of those 
resources to go after the drug gangs and the drug 
organizations?
    Mr. Mueller. Well, we have, but we cannot keep our--not 
take our eye off of organized crime. It has expanded 
dramatically since the days in which we were focused 
principally on La Cosa Nostra. Now you have Bulgarian organized 
crime, Armenian organized crime, Asian organized crime, Russian 
organized crime--and Armenian, if I have not mentioned Armenian 
organized crime--in pockets around the country that need to be 
addressed.
    But we also recognized that what has contributed 
substantially to the violence on the streets are gangs--MS13, 
18th Street Gangs, Latin Kings. And what you have seen in terms 
of our organized crime program is a recognition that these 
violence-prone gangs are as important if not more important 
than the traditional families that we have seen. So there has 
been some shifting of resources to address this organized 
criminal--or these new organized criminal structures, and we 
continue to look at it.
    Senator Kaufman. Great. Perfect. Turning to violent crime, 
you know, community policing, community prosecution, 
intelligence-based policing--I mean, how is the FBI working to 
help local law enforcement, local prosecutors to deal with the 
violent crime problem. I know you are doing a job. I just would 
like to know what you are doing.
    Mr. Mueller. We have approximately 200 task forces around 
the country. My own view is that we learn a tremendous amount 
by sitting shoulder to shoulder with State and local law 
enforcement. When I handled homicides here in the U.S. 
Attorney's Office, I worked with the Metropolitan Police 
Department, the homicide detectives, who were some of the best 
law enforcement agents I have ever had the opportunity to work 
with. I think we make a much greater impact when we work on 
task forces together with State and local law enforcement. That 
is the way we choose to address it.
    I also am not unaware that when we are not doing a number 
of drug cases, we lose contact with the street. And we need to 
maintain as an organization not only the contact and the 
liaison--or the contact with the street so we know what is 
going on with the street, but liaison with those who are the 
street day in and day out. And so that is the way we are 
seeking to address it.
    We have Safe Trails Task Forces that combine State and 
local law enforcement for addressing violent crime in Indian 
country as well. So through these various task forces, whether 
it be in these areas such as Indian country or in the 
communities around the country, we try to address it through 
the task force mechanism.
    Senator Kaufman. Great, and I think that really, as you 
say, is the key--community policing, community prosecution, 
getting back into the community, and the FBI obviously can play 
an incredible role in that, and that is what you are doing.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much, Senator Kaufman.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, Director, for being here, and I enjoyed our 
meeting this week. I know that Senator Kyl asked you about the 
investigation going on in Minnesota, so I appreciate you 
talking with me this week about this.
    I was just listening to all of this and thinking about the 
increase in the mortgage investigations that you are engaging 
in and the increase in some of the white-collar crime because 
of the state of the economy, seeing very strongly why we are 
doing this bill. But the other area that you and I talked about 
but I think it is worth mentioning is just the large portion of 
the economic recovery package--and I know you mentioned this to 
me--that is going to State and local governments, and just the 
potential for corruption, embezzlement.
    Obviously, we want to have that not happen, and so could 
you talk a little bit about how you think we could best prevent 
that from happening in the first place, and then how the FBI is 
going to prepare to investigate it when there are all these 
other things going on.
    Mr. Mueller. We have had lengthy discussions with the 
Inspectors General that have been put into place to address the 
flow of funding that will be coming through the Federal 
Government. In order to try to put into place the recordkeeping 
systems that will enable us to quickly identify with algorithms 
areas where monies are not going where they should go, and 
identifying the various players in a complicated commercial 
transaction who may be the persons that we need to look to down 
the road.
    We find with the mortgage fraud crisis, every county is a 
little bit different in terms of maintenance of the records, 
and often it is difficult for us to quickly identify the 
participants in a particular transaction and identify other 
transactions that that perhaps guilty individual has been 
involved in.
    And so putting in place the information early on as these 
funds are going to be parceled out to various states and 
counties and municipalities is part of it. Working closely with 
the IG to identify mechanisms or telltale signs or trip wires 
that will enable us to quickly focus on where monies are going 
astray is what we are trying to do now as we embark on this era 
of substantial monies being put out by the Federal Government.
    Senator Klobuchar. And another challenge you mentioned was 
just that a lot of people that were convicted in the 1990s, 
some of them very violent offenders, their scheduled release 
dates are coming up now or in the next few years. And what 
steps are you taking to prepare for that? How can we help with 
that?
    Mr. Mueller. I have concern that a number of people were 
locked up by efforts of prosecutors and law enforcement in the 
1990's, and many violent offenders, which contributed 
substantially to the reduction in violent crime over the years.
    Senator Klobuchar. I remember that time. I was a prosecutor 
then.
    Mr. Mueller. You were a prosecutor. And my concern is that 
their sentences will be up, and they will be coming out to an 
economy that does not have jobs and coming out without a skill 
set that would give them the ability to be competitive in a 
very tight economy, and that that would contribute to an uptick 
in violent crime. And we along with a number of the entities--
PERF, Major City Chiefs, Major City Sheriffs, organizations--
are talking about ways we can work together in anticipation of 
what may be an uptick in violent crime down the road.
    Senator Klobuchar. One of the things that you talked about 
with Senator Kaufman and that you and I talked about is the 
effectiveness of the joint task force and how important that is 
when you are dealing with either drug crime, violent crime, or 
some of these financial crimes. And I have certainly seen that 
in our State, particularly with the suburban police departments 
that can all work together.
    Can you talk about how we can create more incentives for 
financing those so that we make sure that our money is used 
most effectively when we send it to the local level?
    Mr. Mueller. I have been supportive over the years in terms 
of financing, providing, augmenting financing for State and 
local law enforcement. I do believe, though, it would be 
helpful, as monies are allocated by Congress to State and local 
law enforcement, that it be tied into an incentive for a task 
force structure so that the monies would be utilized to 
incentivize, to encourage State and local law enforcement to 
work with the Federal Government.
    It is my experience as a U.S. Attorney that I was not 
knowledgeable as to the grants that were going to particular 
police departments, and the grants going to particular police 
departments may well have been as a result of exceptionally 
capable grant writers as opposed to being part of a larger 
scheme of what are the issues, what are the threats within a 
particular district or division, and how do we work together to 
address those particular threats where the monies will be 
coming through the grant process.
    Senator Klobuchar. And you mentioned the local law 
enforcement, and in our State, as you know, we have had good 
relationships between Federal law enforcement and local law 
enforcement. That has not always been true everywhere in the 
country. With a new administration coming in now, a new 
Attorney General, and potential there with the new U.S. 
Attorneys, do you have ideas about how we can improve 
relationships between local--not just local law enforcement, 
also local prosecutors and those on the Federal level?
    Mr. Mueller. Well, as a result of September 11th, one of 
the beneficial--of the very few, I guess, beneficial results of 
that attack was the understanding that we all have to address 
terrorism within our districts together. And a number of 
vehicles were established. For us, it was the Joint Terrorism 
Task Forces. We went from, I think, 35 to we have 106 now. U.S. 
Attorneys' Offices have since then and continuously pulled 
together the various prosecutors and sat down with the various 
law enforcement agencies to address terrorism. And those 
relationships I believe have expanded to other areas that 
traditionally we perhaps have stayed apart.
    I do think that in a transition from one administration to 
another, the smoothest often is with law enforcement because we 
all speak the same language and we all have the same goals. 
And, consequently, across the country, I do not see much of a 
change in terms of relationships. In fact, a number of persons 
who have been U.S. Attorneys before may well be back being U.S. 
Attorneys again, so they are familiar with the ground and the 
operating relationships.
    Senator Klobuchar. Very good. I think I told you this 
story. Mr. Chairman, when we had a new U.S. Attorney come in 
and we decided--I was the local prosecutor--that we would get 
the groups together, the prosecutors on both sides together, 
and he hosted a little party for us in their office. And, Mr. 
Chairman, I never told our office that before we got there--I 
was there early--he got on the loudspeaker and said, ``Nail 
down the furniture. The cousins are coming over.'' But we were 
able to actually build a much better relationship because of 
making that a focus, and we were able to share casework better, 
especially so that when 9/11 came, we were able to take on a 
number of the white-collar cases that they would have had 
before.
    So thank you very much for your work.
    Chairman Leahy. Before I yield to one of those Federal 
cousins--Senator Whitehouse--we are trying to get all the 
prosecutors here. Director, I am going to put into the record 
on behalf of Senator Grassley a number of letters and documents 
regarding oversight that he wanted in the record, and also a 
description of the Leahy-Grassley-Kaufman-Klobuchar, et cetera, 
Fraud Enforcement Recovery Act, which speaks of adding 190 
special agents and more than 200 forensic analysts and other 
staff to address mortgage and financial fraud. That will be 
made part of the record.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman. And welcome, 
Director Mueller. I have served both as U.S. Attorney but also 
been the cousins and served as Attorney General. And when I was 
Attorney General, we went over to visit the U.S. Attorney's 
Office. The only things that were at risk were the pads and 
pencils that we tried to supplant our meager resources with. We 
were nowhere near energetic enough to put the furniture at 
risk. So I applaud my colleague from Minnesota.
    The cyber issue is one that you address at some length in 
your testimony, and I appreciate that very much. It is less a 
type of crime than an arena of crime and other misconduct. It 
ranges from simply people who are expert hackers showing off 
their stuff to traditional criminal activity to what we would 
consider to be advanced industrial espionage to what we would 
consider to be national security espionage, and it creates the 
risk of outright acts of destruction and war being taken 
against our country through the cyber medium.
    In all of that, my fear is that our resources are presently 
inadequate to the task, and that the way in which we address 
the cyber threats creates very considerable civil liberties and 
privacy risks. Having just been through the unfortunate episode 
of the Bush administration's warrantless wiretapping of 
Americans and the remarkable role, frankly, played by the 
Department of Justice in standing up to that--and yourself, I 
might add--what would your advice be for us as Members of 
Congress as to the authorities, the resources, or the 
resolutions of difficult issues, like civil liberties issues, 
that you need us to do in order for our country to be more 
effective? You were not the spear point, but you work off of 
authorities that we give you. You work off resources that we 
give you, and you work constrained by unresolved questions that 
we leave unresolved. If you were going to give us the top three 
or four things that we should be focusing on to address the 
cyber threat, what would those be?
    Mr. Mueller. Well, I think the civil liberties issues are 
less extant when you are looking at the ability of state actors 
to penetrate whether it be defense or the stock market or what 
have you, and that how you protect those networks is one issue, 
where one would have more leeway because they are networks that 
are controlled by the Federal Government.
    The issue about other networks, dot-coms, edu, and the 
like, that are not controlled by the Federal Government raises 
a number of privacy issues that need a broader discussion and, 
quite obviously, in the Judiciary Committees and others. At 
some point----
    Senator Whitehouse. How far along in that discussion do you 
feel we are from the point of view of providing you with policy 
support for the decisions you need to make?
    Mr. Mueller. Well, I do not think the discussion is far 
along at all. I do think it is in part attributable to the 
change of administrations, because the view taken by the 
previous administration is being reviewed by this 
administration. And at the time that that review is completed--
--
    Senator Whitehouse. This is the 60-day review you are 
referring to?
    Mr. Mueller. Yes.
    Senator Whitehouse. OK.
    Mr. Mueller. Yes. But part of it is education in terms of 
educating on the issues, the extent of the issues, and then the 
second part of it is the solution. And my expectation is those 
discussions will increase substantially in the next several 
months as this administration has an understanding and a view 
as to how we solve particularly the issue of a tax on the 
Internet and the like, the dot-gov, and outside of the more 
classified issues that relate to state actors and terrorists 
and the like. But in my mind, in some sense, too, there are 
baskets of issues that require different solutions.
    Senator Whitehouse. So if we focus briefly on the civil 
liberties side, your sense is that the discussion as to where 
the policy line should be drawn is at a fairly preliminary 
stage and does demand further work by Congress, correct?
    Mr. Mueller. Absolutely, yes.
    Senator Whitehouse. And with respect to the resources and 
authorities side, what recommendations have you with respect to 
those areas? Do you feel that you have the cyber resources that 
you need? Do you feel that you have the authorities that you 
need?
    Mr. Mueller. I do not think anybody feels they have the 
cyber resources they need to do the job. In the 2009 budget, we 
received 31 agents, 52 personnel, $19 million. But with the 
growth of the cyber arena, as you call it, which is 
appropriately so because it infects or affects--either infects 
or affects--everything we do now, it is growing by leaps and 
bounds. And all of us struggle to keep up with it, and there 
are new and innovative ways of undertaking intrusions into 
systems and extracting information that the defense is one step 
behind the attackers. And all of us, I think we could use more 
resources, although we are very adept and we have got--whether 
it be the military and NSA and ourselves, we have got some 
very, very talented people to address----
    Senator Whitehouse. I have got just a few seconds, so if 
you do not mind, let me cut you off and ask one last question. 
You are going to be looking, obviously, at financial fraud in a 
very big way. A great number of questions from the Senators 
here have focused on this concern. What I would ask is your 
assurance that your instruction to your organization will be to 
pursue those investigations as high up as they can be driven. 
We both know from our experience that it is actually a good 
deal easier to stop at the bottom layer where you have got one 
or two people bagged with, you know, a bad e-mail or a falsely 
signed document or something, and that to push it up to higher 
levels requiring conspiracies to be proven and much more 
investigative effort to be dedicated is a management choice 
that has to be made. And I would ask your assurance to all of 
us that in that balance you will be pressing your organization 
to push upward as far as the facts and the law will drive; and 
if you need additional resources to make that work, that you 
will ask us for those. I don't want to have this be civil Abu 
Ghraib in which a couple of home mortgage dealers in, you know, 
Cranston, Rhode Island, get prosecuted and the guys at the top 
get away with it.
    Mr. Mueller. You have my assurance. You also should know 
that my approach in these cases is not the traditional white-
collar crime but the narcotics case approach. The fastest way 
to get these cases done is to obtain the intelligence 
indicating who was in what place at what time and then have 
persons cooperate, and cooperate as far to the top as you can 
go as fast as you can go, as opposed to putting agents in a big 
room with a lot of paper and trying to sort through the paper. 
And in my experience, when it comes to white-collar crime, I 
put narcotics prosecutors in charge of that because I thought 
they were as effective as any. And so you have our assurance 
that we will utilize that approach to go as far as we can in 
the organizations.
    Senator Whitehouse. Thank you.
    Chairman Leahy. Thank you very much, Senator Whitehouse.
    Senator Durbin.
    Senator Durbin. Mr. Director, thank you for being here 
today. It is good to see you again, and I know that there have 
been questions asked earlier about the Mexican drug cartels, 
and I would like to focus on one particular aspect.
    Arizona Attorney General Goddard testified before my 
Subcommittee last week in reference to the battles being fought 
in Arizona over these drug cartels and their activities. He 
described in shorthand term that the cartels are shipping drugs 
and humans into the United States and we are shipping cash and 
guns into Mexico. It seems to be the equation, the sad and 
tragic equation that takes place.
    Now, I want to ask you about two aspects of that, and I 
know one has been touched on already. But let me give you an 
illustration of why I am asking this question. Last week, a 
State judge in Arizona dismissed charges against a gun dealer 
who was accused of knowingly selling about 700 weapons through 
intermediaries to two smugglers who shipped the weapons to a 
Mexican drug cartel. Several of the weapons were recovered in 
Mexico after shootouts with the police, including a gunfight 
last year in which eight Mexican police officers died. The case 
shows how difficult it is to convict gun dealers in the United 
States who were knowingly supplying weapons to Mexican drug 
cartels.
    As I understand it, it is not a Federal criminal offense to 
traffick firearms in the United States, and in order to 
prosecute gun dealers and purchasers who knowingly sell and 
purchase guns for Mexican drug cartels, Federal law enforcement 
has to charge these individuals with paperwork violations, such 
as making false statements on purchase forms. These paperwork 
offenses have low penalties and can be hard to establish and 
obviously are not a priority when it comes to prosecution.
    Now, the estimate on the volume of firearms from the United 
States to Mexico is wide ranging. The highest estimate I have 
read comes from the Brookings Institution, which suggests 2,000 
firearms a day from the United States shipped into Mexico to 
engender these drug wars where they are killing off one 
another, the police, and innocent people.
    I think we bear some moral responsibility to slow this flow 
of guns into Mexico, particularly in examples such as I have 
given you. No one buys 700 weapons for self-defense or for 
sporting or hunting purposes. It clearly is a purchase for the 
sole reason of resale, and in this case, we had a gun dealer 
who was found to have done this and could not find a law to 
prosecute him under.
    What is your impression?
    Mr. Mueller. I am not familiar with that case. I know that 
we--by ``we,'' I mean the Federal Government--prosecute any 
number of cases each year of straw purchasers and that that is 
a substantial focal point for ATF. That sounds outrageous that 
under those circumstances, as you describe it, the person would 
not be jailed, and I will go back and look at the legal 
framework, as you obviously are, to make certain that this does 
not happen. And it is not just guns to Mexico, but it is guns 
within the United States gangs and straw purchasers.
    Senator Durbin. Absolutely.
    Mr. Mueller. And so it is a substantial problem, both 
domestically as well as, as was highlighted in the last week or 
so, with regard to what is happening in Mexico.
    Senator Durbin. Your background is in the law and law 
enforcement. My world is political. And in the world of 
politics, many people are shying away from even discussing this 
question. But I think I am going to ask you in your official 
capacity to take a look at the existing laws as they relate to 
straw purchasers. I do not believe that we can turn our back 
and say that this Mexican drug cartel is just a bunch of angry 
Mexican gang members killing one another off. I mean, we are, 
in fact, providing firearms that arms these drug cartels and, 
unfortunately, creates mayhem.
    I had a meeting, a private meeting, with a Mexican mayor in 
a border city who has shipped his family to America because 
they are not safe to be there. And many like him are threatened 
every single day--threatened with American weapons, bought 
illegally in the United States and shipped in volume into 
Mexico. So I will ask you to look at that.
    The other thing that Attorney General Goddard brought up 
was the transfer of funds from the United States to Mexico, and 
he talked about several things that we are looking into. One is 
the stored value card, which I was not aware of, but it is the 
equivalent of a credit card that has some dollar value 
associated with it that can be used. And he raised the question 
as to whether or not we are looking at that as a means of 
transferring money across the border, a simple little plastic 
card.
    I do not know if you are familiar with that or have looked 
into it. He suggested law enforcement should be able to read 
the cards--how much money is on this card?--since there are 
limitations to how much cash you can take over the border.
    Have you run across this issue?
    Mr. Mueller. I had not until, I think, your staff in 
preparation for the hearing raised it to me as being an issue. 
Periodically, there are new mechanisms that come up for 
shipping funds across the country. Some of them are by the 
Internet now, some that are remitter organizations. When we are 
looking at these cards, one of the things--I do not know 
whether you suggested it, or others--as you look at the 
registration and the tracking of those cards to give us a 
mechanism for tying the monies into particular individuals who 
may be involved in illegal activity, and that is something we 
will look at as a result of your inquiry.
    Senator Durbin. Thank you. We estimate $10 billion is being 
transferred in drug proceeds from the United States into Mexico 
each year--thousands, maybe hundreds of thousands of firearms, 
and $10 billion. And I have spoken to representatives of the 
Mexican Government who are doing their best in the face of 
6,000 or more being killed last year in their country, put the 
military on the border, but they expect us to do our part, too, 
to reduce where we can this flow of firearms and flow of cash 
and, I guess the bottom line, address the drug laws in America.
    I only have a few seconds left, and I will not have time to 
get into a long list of questions on one of our favorite 
topics, and that is technology at the FBI. And I do know--and 
we have talked about it at length--that you inherited one of 
the most backward systems in the Federal Government that at the 
time of 9/11, the computer capacity as the FBI was not as 
proficient as you might find off the shelf at a Radio Shack in 
a shopping center.
    But things have changed. There have been some false starts, 
and I believe now that the Sentinel program is underway. There 
is a GAO report that came back with some observations. I would 
like to give you an opportunity to comment on those in an 
orderly way so that we can be brought up to date.
    Mr. Mueller. There are a number of areas that we have made 
substantial progress. Sentinel is on target, on budget. We now 
have 24,000 BlackBerrys, the basic accoutrements of the 
technology age. One of the issues was we work on a Secret 
platform. Everybody has Secret. We have upgraded where 
necessary to the Top Secret, which requires SCIFs and secure 
areas, but also the second set of computers and the networks, 
and we also now are up to 30,000 out of 36,000 computers that 
can handle the Internet for our employees.
    And so we have to operate it, have three networks: you have 
to have the unclassified, you have to have the Secret, you have 
to have the Classified. We have made substantial strides. We 
still have work to do. This year, I will tell you, on Sentinel 
is sort of the year we get over the mountain. And so we have 
been meeting every other week or so, and we are pushing it 
forward. We have made substantial strides, but I am not going 
to declare victory until Sentinel is in and everybody has it. 
And we are not just up with everybody else but ahead of 
everybody else.
    Senator Durbin. Well, the best law enforcement agency in 
the world should have the best technology, and I know this has 
been a mountain that you have climbed, and I have joined you in 
a few of those hikes in the past.
    Thank you.
    Mr. Mueller. Thank you.
    Chairman Leahy. Thank you very much.
    I guess our last questioner is going to Senator Wyden, and 
then I know we have a roll call vote at noon. Don't we, Mr. 
Leader?
    Senator Durbin. I don't think so.
    Chairman Leahy. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman, and, Director 
Mueller, welcome, and I want to pick up exactly where Senator 
Durbin left off, and that is this question of the information 
technology issue.
    Do all FBI analysts and agents now have access to the 
Internet at their desktops?
    Mr. Mueller. Thirty thousand out of 36,000. The reason that 
we do not have the last 6,000 at this juncture is because 
several offices, it would be financially--it would be--to put 
in the networks and, that is, do the wiring and the like, would 
be--does not make any economic sense, particularly when these 
offices are going to move very shortly. And so to the extent 
that we have been able to put in the second network we have, 
with just about everybody in the organization, even if they do 
not have it at their desks, those other 6,000 computers we 
want, they will have access to the Internet nearby.
    Senator Wyden. That obviously has been something that has 
been troubling to people, and as you know, I have asked about 
this in the past in my other capacity as a member of the 
Intelligence Committee.
    With respect to the move, when will it be possible to say 
that all FBI analysts and agents have access to the Internet at 
their desk? In other words, you have said there are going to be 
6,000 people still because of expensive facilities and the 
like. On what date will it be possible to say that the agency 
is really getting close to the point of 21st century 
technology?
    Mr. Mueller. Well, I would say we are at 21st century 
technology. There are these pockets in particular offices, and 
by the end of the year, we would expect to be 99 percent done. 
But I would say we are in the 21st century. I mean, there is 
nobody, I do not believe, who does not have ready access to the 
Internet at this juncture.
    Senator Wyden. I know it has been frustrating for you. I 
think people were incredulous when I asked these questions 
earlier, and I know progress has been made, and that is why I 
am asking it again.
    Mr. Mueller. Thank you.
    Senator Wyden. With respect to secure case management 
computer systems--and this is another area where you all have 
spent a lot of time--it is my understanding that there is 
currently no way to share audio or video files on this system 
now. Is that correct?
    Mr. Mueller. I do not think that is correct. I know we have 
mechanisms to do that. I would have to get back to you with the 
specifics of it.
    Senator Wyden. Would you?
    Mr. Mueller. I will.
    Senator Wyden. Because that was my understanding, that it 
was not currently possible to share that information. If you 
will get back to me, that would be great.
    Mr. Mueller. I will. I do not think that is accurate.
    Senator Wyden. With respect to the role of intelligence 
analysts, I think it is well understood that they are going to 
be critical in terms of the Bureau's function. In 2004, the 
Congress gave the agency special authority to hire 24 senior 
intelligence analysts. But in 2007, when I asked about this, I 
was told that only two of these senior positions had been 
filled.
    So, again, I am just reporting to you what I have been 
told, but I have been told now that only five of these senior 
intelligence spots have been filled. This is five out of the 24 
that the Congress felt strongly about.
    Do you know if that is correct?
    Mr. Mueller. I will have to go and check on that. I do 
believe it is more than five, but I would have to check on 
that. I know we took some of those spots and utilized them in a 
way that made more sense to the organization, but I will have 
to get back specifically on that to you.
    Senator Wyden. Do you know if the agency plans to fill all 
24 of the spots?
    Mr. Mueller. That is where I am--I would have to get back 
to you, because I believe that we were utilizing those spots in 
a way that was consistent with the intent of the statute but 
may not be the exact spots as put into the statute.
    Senator Wyden. So you will get back to me on that one.
    Mr. Mueller. We will do that.
    Senator Wyden. OK. Let me ask you about one other one, and 
that is the question of the FBI briefing congressional 
committees on terrorism and counterintelligence inquiries. The 
concern here is that frequently it has not been possible to get 
those briefings and the Linder letter is cited as the 
justification. So when the FBI withholds information on 
national security matters, obviously it is hard then for the 
Congress to assess security threats to the country or how well 
the FBI is adapting to meet the threats.
    So I understand the need to be able to protect U.S. person 
information, and I think it is obvious that this Committee and 
Members of the U.S. Senate do not want to do anything to 
jeopardize ongoing inquiries. But at the same time, this status 
quo makes it hard to do sensible and thoughtful congressional 
oversight. So I think it is time to make a change here. I think 
it is time to reverse policy here, and my question is: In your 
view, can briefings from the FBI and the DOJ be structured so 
that the Congress gets the intelligence information it needs 
for effective oversight without compromising what you need to 
be able to do your investigations and your prosecutions? It 
seems to me you have this Linder letter, and certainly the 
Congress is frustrated because we do not feel that we are 
getting the information we need about terrorism and 
counterintelligence investigations. Your people, I am sure, 
chafe at the idea of doing these briefings because they are 
concerned about compromising ongoing prosecutions and 
investigations.
    How do we get to a sweet spot where you can do your work, 
which is, in my view, vitally important to the country and the 
Congress can do some oversight?
    Mr. Mueller. A short answer is yes, we can work on this 
issue, and I will tell you, we have frustration because now 
that we disseminate a lot of the information, particularly in 
the counterterrorism arena, what we are finding is the 
information we disseminate is coming up and being briefed to 
the Intelligence Committee by others, where we are precluded by 
the Justice Department in briefing that which we have provided 
to the other agencies.
    And so we will be working with the Department of Justice to 
work out a mechanism whereby we can brief on intelligence 
matters without adversely impacting ongoing investigations.
    Senator Wyden. In your view--and I appreciate that because 
your answer certainly suggests that you are open to it--what 
would be a plan, what would be an alternative to a Linder 
letter in your view, just conceptually?
    Mr. Mueller. I would think that certainly in intelligence 
we could brief on matters that we have distributed to the 
intelligence community, unless there is a particular concern 
relating to a particular ongoing investigation. There also are 
mechanisms to--one of the problems we have is that by reason of 
either statutes or other Presidential directives, we are unable 
to--or should not utilize in briefings names of, for instance, 
United States citizens that could be part of it, where you can 
talk generally without doing the specifics. So that there are 
mechanisms that could be adopted that would protect not only 
U.S. citizens but also ongoing prosecutions.
    One of the concerns one has is the fact that most of our 
intelligence is developed on U.S. citizens that have a higher 
degree of privacy interest and rights than perhaps others that 
the agency is looking at overseas.
    Senator Wyden. My time----
    Chairman Leahy. A roll call vote has begun. We are going to 
end this at noon. I realize you were not here for much of it 
and you did not know that, but go ahead. You had another 
question.
    Senator Wyden. Mr. Chairman, I would just wrap up very 
quickly.
    I think this is a constructive approach that you are 
outlining, Mr. Director. I would hope that we could narrow the 
times when there was not a brief, narrow the number of 
instances where the Linder letter was invoked. I am interested 
in working with you.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much, Senator Wyden.
    Senator Sessions, you wanted 3 more minutes.
    Senator Sessions. Thank you. You are very kind, Mr. 
Chairman.
    Mr. Director, we are all concerned about the violence in 
Mexico. You have been asked about it previously. We had a 
hearing about that recently with ATF and Homeland Security and 
some other agencies, not FBI. But it strikes me that the new 
President there is standing up not because we have told him 
what to do, but because he understands the threat to Mexico, 
and he has challenged these organizations, and a lot of the 
violence we are seeing is because the government is challenging 
them. But they are a powerful force. They have the ability to 
assassinate, kidnap, murder leaders and mayors and police 
chiefs that stand up against them, and it is a very dicey time. 
And I think we should do what we can to help.
    It strikes me that the best way we could help would be to 
vigorously prosecute the parts of those organizations that are 
operating in the United States, that are selling drugs and 
cocaine and methamphetamine and other drugs in this country, 
collecting the money, sending it back to buildup the wealth and 
power of these cartels.
    So I guess my question to you is: Do you fundamentally 
think that is perhaps the best thing we can do to help? Are we 
doing enough? And will the FBI participate?
    Mr. Mueller. We participate, as I indicated before, in 
OCDETF, as you are familiar with. We are a strong participant 
in that. That is an area where we have maintained our 
participation.
    Second, we work with DEA and ATF and the other agencies 
through the OCDETF mechanism to address the cartels throughout 
the United States.
    Senator Sessions. OCDETF is the Organized Crime Drug 
Enforcement Task Force that has multiple agencies participating 
to target the biggest kind of drug organization.
    Mr. Mueller. And as a result of that, there have been a 
number of prosecutions over the years, and to the credit of 
President Calderon, he has increased substantially the 
extradition to the United States of those cartel leaders. There 
were 95 last year. There are 23 this year. The 95 last trebled 
the extraditions from 3 years previous.
    Senator Sessions. So you are finding more cooperation than 
we have had before with Mexico.
    Mr. Mueller. Absolutely.
    Senator Sessions. I think that is the partnership that we 
should push forward with. Many of these guys that flee back and 
forth across the border move back and forth. We will prosecute 
them if they will extradite them. We will put them in a firm 
Federal prison where they cannot buy their way out of jail or 
break out of jail. I think it can help, Mr. Chairman, to reduce 
the power of these cartels and strengthen the ability of the 
strong Mexican President to be successful.
    Mr. Mueller. Thank you, sir.
    Chairman Leahy. I thank the Senator from Alabama.
    I agree with him that we have got to help Mexico get this 
under control. They are, as I said in my opening statement, the 
second largest trading partner that the United States has. They 
are our southern border. They are a significant democratic 
nation, and to have their democracy basically torn apart by 
public corruption and drug money is something they do not want, 
certainly President Calderon does not want. You have been down 
there, Director Mueller. You know that both sides of the border 
are damaged if it continues.
    So I will put my full closing in the record, but I do thank 
the Director not only for his service but for working with us. 
We have raised a number of issues. We will continue to work 
together, and I appreciate him doing that, and I thank you for 
being here.
    Mr. Mueller. Thank you, sir.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]
    [Questions and answers and submissions follow.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
